<html>
<title> - ENSURING ECONOMIC OPPORTUNITIES FOR YOUNG AMERICANS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                    ENSURING ECONOMIC OPPORTUNITIES
                          FOR YOUNG AMERICANS

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 1, 2009

                               __________

                           Serial No. 111-34

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
52-413                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 1, 2009..................................     1

Statement of Members:
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     5
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Questions for the record.................................    48

Statement of Witnesses:
    Austin, Algernon, director, Program on Race, Ethnicity and 
      the Economy, Economic Policy Institute.....................    29
        Prepared statement of....................................    31
    Oates, Hon. Jane, Assistant Secretary for the Employment and 
      Training Administration, U.S. Department of Labor..........     7
        Prepared statement of....................................    10
        Responses to questions submitted.........................    48
    Segal, Matthew, executive director, Student Association for 
      Voter Empowerment (SAVE)...................................    12
        Prepared statement of....................................    14
    Stoneman, Dorothy, President and Founder, YouthBuild USA.....    18
        Prepared statement of....................................    20
        Additional submissions:
            Ely Flores, ``From Violent to Activist''.............    22
            Alischa Ann Singleton, Hope Center, Inc., Gretna, LA.    24
            Wayne Whack, YouthBuild Philadelphia Charter School, 
              Philadelphia, PA, Class of 2006....................    24
            Wilfried Plalum, Youthbuilding Alternatives, 
              Portland, ME, Class of 1995........................    25
    Wilson, D. Mark, principal of Applied Economic Strategies, 
      LLC........................................................    26
        Prepared statement of....................................    28


                    ENSURING ECONOMIC OPPORTUNITIES
                          FOR YOUNG AMERICANS

                              ----------                              


                       Thursday, October 1, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 9:58 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Scott, McCarthy, 
Kucinich, Holt, Sestak, Loebsack, Altmire, Shea-Porter, Fudge, 
Chu, Kline, Petri, Ehlers, Platts, Guthrie, Roe, and Thompson.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Tico Almeida, Labor Counsel (Immigration 
and International Trade); Jody Calemine, General Counsel; Lynn 
Dondis, Labor Counsel, Subcommittee on Workforce Protections; 
Adrienne Dunbar, Education Policy Advisor; David Hartzler, 
Systems Administrator; Ryan Holden, Senior Investigator, 
Oversight; Jessica Kahanek, Press Assistant; Celine McNicholas, 
Labor Policy Advisor; Alex Nock, Deputy Staff Director; Joe 
Novotny, Chief Clerk; Rachel Racusen, Communications Director; 
Meredith Regine, Junior Legislative Associate, Labor; James 
Schroll, Junior Legislative Associate, Labor; Ajita Talwalker, 
Education Policy Advisor; Michele Varnhagen, Labor Policy 
Director; Daniel Weiss, Special Assistant to the Chairman; Mark 
Zuckerman, Staff Director; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Andrew Blasko, 
Minority Speech Writer and Communications Advisor; Casey 
Buboltz, Minority Coalitions and Member Services Coordinator; 
Cameron Coursen, Minority Assistant Communications Director; 
Kirsten Duncan, Minority Professional Staff Member; Ed Gilroy, 
Minority Director of Workforce Policy; Rob Gregg, Minority 
Senior Legislative Assistant; Richard Hoar, Minority 
Professional Staff Member; Alexa Marrero, Minority 
Communications Director; Jim Paretti, Minority Workforce Policy 
Counsel; Susan Ross, Minority Director of Education and Human 
Services Policy; and Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel.
    Chairman Miller [presiding]. A quorum being present, the 
committee will come to order. We are kind of caught between two 
situations. Both parties, I think, are in caucuses, and we also 
anticipate relatively early votes, so I would like to go ahead 
and members will be showing up.
    But I would like to go ahead and begin this morning's 
hearing, the topic of which is ensuring economic opportunities 
for young Americans. And I want to thank our witnesses for 
being here and I will introduce you all in a moment.
    The Education and Labor Committee meets this morning to 
examine strategies for ensuring better economic opportunities 
for young Americans. The summer or part-time job has 
traditionally been a gateway to future success for generations 
of Americans.
    In fact, every member of the committee can probably look 
back fondly on the first job at the corner grocery during high 
school or some other job to put gas money in your pocket every 
week. In my case, working back-breaking summer jobs at the 
local refinery helped me pay for college and escape that 
experience debt free. These job opportunities not only provided 
me the cash to help pay for school and to save for the first 
car, but they also give young workers an introduction to what 
it means to work with others, for others, on a shift and try to 
make a living.
    Unfortunately, these opportunities are scarcer for today's 
young workers than ever before. One reason may be that workers 
are retiring later because of the shrinking pension benefits 
and 401(k) accounts. This means fewer newer opportunities for 
younger workers because older workers may stay on longer in 
order to rebuild their retirement security.
    The dramatic fall in youth unemployment over the last 
decade is startling. Sixty percent of 16-to 24-year-olds were 
employed in 1999; today, fewer than 48 percent have a job--the 
lowest level since World War II.
    This situation is grim, especially when you take into 
account underemployment. During the first quarter of 2009, 
workers younger than 25 had an underemployment rate of 32 
percent. That is nearly 20 percent higher than workers aged 35 
to 54.
    The financial crisis has had a severe impact on employment 
prospects for millions of Americans, not just the young. 
Indeed, because of the horrible economy, younger workers are 
now competing with more experienced workers for positions 
traditionally the domain of the young and less experienced. 
Until the economy as a whole turns around, younger workers will 
continue to be hit the hardest.
    But the recession has only made a bad situation worse for 
young workers. The falling overall unemployment rate among 
younger workers 16 to 24 began more than a decade ago and has 
declined nearly every year. Even in periods of economic 
stability, fewer young people do not make the transition to the 
workforce; they face challenges of completing high school and 
obtaining skills that they need to succeed.
    For these young people, alternative education and job 
training models provide a critical link to the workplace. Today 
we will hear about some of these programs and how they are 
trying to meet the needs of our nation's most vulnerable youth.
    Teens looking for summer jobs have been especially hard-
hit. The unemployment rate among 16-to 19-year-olds during the 
summer has increased by 113 percent compared to 10 years ago.
    By looking at this data, it is clear that the drop in 
employment is not just the result of a sudden shock to the 
system, but part of a larger trend. You cannot ignore the fact 
that 20 percent fewer younger workers are participating in the 
labor market today than in 1999. This tells me that more needs 
to be done; perhaps we need to rethink strategies to help 
younger workers find meaningful employment in any economy.
    The consequence of reduced work opportunities among young 
Americans means fewer long-term employment prospects, less 
earnings, and decreased productivity. Fewer work opportunities 
also result in higher debt--more student loans, credit card 
debts, and so on.
    If these dramatic trends are not reversed, our nation faces 
a potential generation of youth disconnected from the 
employment market. That is why as part of the American Recovery 
and Reinvestment Act we invested an additional $1.2 billion to 
beef up youth job programs, including summer employment 
opportunities, under the Workforce Incentive Act.
    The additional funding of summer jobs has proved 
successful. In fact, the Government Accountability Office found 
that most states they reviewed either met or exceeded the 
state's goals by nearly a quarter of a million summer jobs 
created.
    The House also has approved legislation to make an 
unprecedented $10 billion investment to help make community 
colleges part of our economic recovery. The Student Aid and 
Fiscal Responsibility Act will help prepare young workers for 
jobs in the future and build 21st century workforces by 
strengthening the partnerships among community colleges, 
businesses, and job training programs that will align community 
college curricula with the needs of high-wage, high-demand 
industries.
    Today's hearing will also give us an opportunity to look at 
other programs that serve young workers and look at ways we can 
expand the program that are making real differences. We will 
also explore new strategies, some developed by young people 
themselves, to ensure that younger workers can compete in the 
job market.
    I thank the witnesses for joining us, and at this point I 
would like to recognize Congressman Kline, the senior 
Republican on the Education Committee.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    The Education and Labor Committee meets this morning to examine 
strategies for ensuring better economic opportunities for young 
Americans.
    A summer or part-time job has traditionally been the gateway to 
future success for generations of Americans.
    In fact, every member on this committee can probably look back 
fondly on that first job at the corner grocery during high school that 
may have put a little gas money in your pocket every week.
    In my case, working a back-breaking summer job at the local 
refinery helped me pay for college and escape debt free.
    These job opportunities not only provide needed cash to help pay 
for school or save for a first car; but, they also give young workers 
an introduction to what it means work with others on a shift and try to 
make a living.
    Unfortunately, these opportunities are scarcer for today's young 
workers than ever before.
    One reason may be that workers are retiring later because of 
shrinking pension benefits and 410(k) accounts. This means fewer new 
opportunities for younger workers because older workers may stay on 
longer in order to rebuild their retirement security.
    The dramatic fall in youth employment over the last decade is 
startling. Sixty percent of 16 to 24 year-olds were employed in 1999.
    Today, fewer than 48 percent have a job; the lowest level since 
World War II.
    This situation is grim, especially when you take into account 
under-employment.
    During the first quarter of 2009, workers younger than 25 had an 
under-employment rate of 32 percent. That is nearly 20 points higher 
than workers ages 35 to 54.
    The financial crisis has had a severe impact on the employment 
prospects of millions of Americans, not just the young.
    Indeed, because of the horrible economy, younger workers are now 
competing with more experienced workers for positions traditionally the 
domain of the young and less experienced.
    Until the economy as a whole turns around, younger workers will 
continue to be hit the hardest.
    But the recession has only made a bad situation worse for younger 
workers.
    The falling overall employment rate among young workers 16 to 24 
began more than a decade ago and has declined nearly every year.
    Even in periods of economic stability, fewer young people do not 
make the transition to the workforce. They face challenges completing 
high school and obtaining the skills they need to succeed.
    For these young people, alternative education and job training 
models provide a critical link to the workplace. Today, we will hear 
about some of these programs and how they are trying to meet the needs 
of our nation's most vulnerable youth.
    Teens looking for a summer job have been especially hard-hit. The 
unemployment rate among 16 to 19 year-olds during the summer has 
increased by 113 percent compared to ten years ago.
    By looking at this data, it is clear that the drop in employment is 
not just the result of a sudden shock to the system, but a part of a 
larger trend.
    You cannot ignore the fact that 20 percent fewer younger workers 
are participating in the labor market today than in 1999.
    This tells me that more needs to be done or perhaps we need to 
rethink strategies to help young workers find meaningful employment, in 
any economy.
    The consequences of reduced work opportunities among young 
Americans mean fewer long-term employment prospects, less earnings, and 
decreased productivity.
    Fewer work opportunities also result in higher debts--more student 
loans, credit card debts, and so on.
    If these dramatic trends are not reversed, our nation faces the 
potential of a generation of youth disconnected from the employment 
market.
    That's why as a part of the American Recovery and Reinvestment Act, 
we invested an additional $1.2 billion to beef up youth jobs programs, 
including summer employment opportunities, under the Workforce 
Investment Act.
    The additional funding for summer jobs have proved successful.
    In fact, the Government Accountability Office found that most 
states they reviewed either met or exceeded the state's goals with 
nearly a quarter million summer jobs created.
    The House also just approved legislation to make an unprecedented 
$10 billion investment to make community colleges part of our economy's 
recovery.
    The Student Aid and Fiscal Responsibility Act will help prepare 
young workers for the jobs of the future and build a 21st century 
workforce by strengthening partnerships among community colleges, 
businesses and job training programs that will align community college 
curricula with the needs of high-wage, high-demand industries.
    Today's hearing will also give us an opportunity to look at other 
programs that serve young workers and look at ways we can expand 
programs that are making a real difference.
    We will also explore new strategies, some developed by young people 
themselves, to ensure that younger workers can compete in this job 
market.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman. Thank you for holding 
this hearing. I would ask unanimous consent that my entire 
opening statement be entered into the record----
    Chairman Miller. Without objection.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Chairman Miller, and good morning. We're here today to 
examine economic opportunities for young Americans. Unfortunately, 
those opportunities seem to be few and far between these days.
    The Bureau of Labor Statistics reports that youth unemployment has 
reached a staggering 25.5 percent. That's the highest level since we 
began tracking youth unemployment back in 1948.
    These figures are daunting. Although not all young people wish to 
pursue employment, we know that a first job can instill critical 
values. Jobs breed responsibility and independence. Employment helps 
young people understand the value of a dollar, and what it means to 
work and save to pursue their goals.
    The economic downturn has hit Americans of all ages and 
socioeconomic backgrounds. However, young people have been hit 
particularly hard.
    With more than a quarter of young Americans unable to find a job, I 
expect we'll hear proposals this morning to spend more and do more at 
the federal level. You see, there's a tendency in Washington to want to 
throw money at our problems. I understand that reaction, but I don't 
agree with it.
    History has shown that federal spending--and the red tape and 
regulations that come with it--does not create jobs. More than $1.2 
billion in federal stimulus funding has been spent to help teenagers 
find employment, yet the youth unemployment rate continues to soar.
    Recently, the Government Accountability Office has given us clues 
as to why that may be the case. For instance, GAO reports significant 
bureaucratic problems in states' implementation of the stimulus plan. 
Simply put, bureaucracy is getting in the way of jobs.
    The answer is not to throw more taxpayer dollars into the 
bureaucratic black hole.
    Nor does the answer lie in additional federal mandates. Two years 
ago, the majority increased the national minimum wage. They did it 
without providing the type of small business relief--health care 
assistance, for example--that Republicans advocated at the time.
    We warned back then that federal mandates on employers often have 
unintended consequences for workers. Unfortunately, our warnings seem 
to have come true, as employers find it increasingly difficult to hire 
young people without work experience at these higher wages.
    Certainly, there is an appropriate federal role to promote economic 
opportunity for all Americans, including youth. For instance, the 
Workforce Investment Act includes programs that prepare young people 
for employment and help them secure jobs.
    One of the great strengths of the WIA framework is that it is 
rooted in state and local workforce investment boards--a governance 
structure that allows states and local communities to nimbly respond to 
changing labor market conditions and individual job seekers' needs, 
including the needs of young people.
    If we want to expand economic opportunities for young Americans, 
perhaps we could start by reauthorizing WIA. We have not updated that 
law in more than a decade--a glaring omission, particularly given our 
current economic challenges.
    We should also focus on educational attainment, helping young 
people succeed in high school and beyond. An emphasis on youth 
employment must not overshadow the importance of education in ensuring 
long-term economic opportunity for the next generation.
    Finally, we should foster broader policies that will spur job 
creation and overall economic growth--proven strategies like tax relief 
for small businesses, incentives for job creation, and health care 
reform that will reduce costs for businesses working to create and 
preserve jobs.
    Ensuring economic opportunity is a worthwhile goal, and certainly 
those opportunities should include young people. I, for one, believe 
the best place to start is with a positive, pro-growth agenda that 
recognizes it is American ingenuity and enterprise--and not the federal 
government--that creates economic opportunity for all.
    Thank you, and I yield back.
                                 ______
                                 
    Mr. Kline [continuing]. And I would like to just briefly 
summarize a couple of points.
    The chairman underscored the problem that we are facing 
now: We have got over 25 percent unemployment amongst our young 
people. It is the highest level since 1948. It is an untenable 
position.
    We know that the economy is struggling. It is down in areas 
we haven't seen for decades. The chairman mentioned that the 
GAO reported that the stimulus money--the $1.2 billion--was 
working.
    There is a flip side in that report: It is not working as 
it should be, and in some places not working at all. In fact, 
sort of paraphrasing or summarizing, the GAO indicated that in 
many cases red tape and the bureaucracy is, in fact, getting in 
the way.
    We know that we increased the minimum wage, and there was a 
great deal of fanfare associated with that but many of us 
predicted that raising that minimum wage would have an 
unusually adverse impact on the young people--people teenagers, 
people trying to get their first jobs. And it is difficult to 
make such a correlation because of the collapse of the economy, 
but it seems clear to me that raising that minimum wage did 
exacerbate the problem for young folks.
    There are programs in place--federal programs--which I 
think we ought to be looking at. The Workforce Investment Act 
is long overdue to be reauthorized. We ought to look at that. 
It includes programs that prepare young people for employment 
and help them find jobs. We ought to be looking at ways of 
making that more efficient.
    I am looking forward to your testimony today. It is a 
problem that we need to explore. And thank you for attending.
    I yield back.
    Chairman Miller. I thank the gentleman. Pursuant to 
committee rule 7(c) all members may submit an opening statement 
in writing which will be made part of the permanent record.
    I want to welcome our witnesses, and our first witness will 
be Ms. Jane Oates, who is the assistant secretary of the 
Employment and Training Administration at the U.S. Department 
of Labor. Prior to her appointment, Assistant Secretary Oates 
served as executive director of the New Jersey Commission on 
Higher Education and senior advisor to Governor Corzine. She 
also served for nearly a decade as senior policy advisor on 
workforce development to the late Senator Kennedy.
    Assistant Secretary Oates received her B.A. from Boston 
College and a Master's in education in reading from Arcadia 
University.
    And at this point I think Mr. Holt has something he wants 
to amend my statement with.
    Mr. Holt. I would only second your statement, Chairman 
Miller, thank you. And I, too, am pleased to recognize and 
welcome Jane Oates, a resident of Lambertville, New Jersey, and 
current assistant secretary for employment and training.
    Many on this committee have known of Jane Oates' skills and 
abilities as we watched her put her skills on display with 
Senator Kennedy's committee. I have seen her skills and 
abilities on display firsthand during her tenure as executive 
director of the New Jersey Commission on Higher Education and 
as a senior policy advisor to Governor Corzine. She, along with 
Lisa Jackson and others, have exemplified the very high level 
of quality of the governor's cabinet in New Jersey.
    Jane Oates was a strong proponent of New Jersey's excellent 
system of higher education and worked with Governor Corzine to 
make colleges more affordable. She should be proud of her many 
accomplishments, including helping shepherd the credit transfer 
legislation that lets community college students transfer to 4-
year universities without paying for duplicate courses, 
something that veers our committee's work here on the Student 
Aid and Fiscal Responsibility Act.
    And I was particularly pleased with her efforts to reform 
our state's high school curriculum, sharpening its emphasis on 
math and science. I think the committee and the whole country 
are lucky to have her, in her words, as she says, as part of a 
team that helps America get back to work.
    Thank you, Mr. Chairman.
    Chairman Miller. Now I really feel bad, Ms. Oates, because 
I worked for years to try to get the California state college 
system to do that, and it has been years, and you just went 
over there and did it in New Jersey.
    Ms. Oates. [Off mike.]
    Chairman Miller. Oh, I feel better then. I don't think the 
students feel any better, but I----
    Mr. Holt. Mr. Chairman, she is effective.
    Chairman Miller. As opposed to? [Laughter.]
    Thank you. Thank you, Mr. Holt. I appreciate that. That is 
why we have the ability to revise and extend.
    I want to reintroduce the rest of the panel. Matthew Segal 
was the founder and national co-chair of the 80 Million Strong, 
a coalition of youth organizations committed to addressing the 
current youth unemployment crisis. Mr. Segal also serves as 
executive director of the Student Association for Voter 
Empowerment. Mr. Segal holds a B.A. from Kenyon College.
    Dorothy Stoneman is president and founder of YouthBuild 
USA, a youth community development program. Prior to finding 
YouthBuild USA in 1990, Dr. Stoneman lived and worked for 24 
years in New York City, first as a teacher and later as a--for 
several community organizations. Dr. Stoneman received a B.A. 
from Harvard University, and M.A. and Ph.D. from Bank Street 
College of Education.
    D. Mark Wilson is a principal at Applied Economic 
Strategies. He has served 7 years as deputy assistant secretary 
for Employment Standards Administration at the U.S. Department 
of Labor under President Bush. Mr. Wilson received his B.A. 
from Kent State University and an M.A. from George Washington 
University.
    Algernon Austin directs the Economic Policy Institute's 
program on Race, Ethnicity, and the Economy. Prior to joining 
the Economic Policy Institute, Dr. Austin was a senior fellow 
at Demos, a think-tank, and assistant director of research at 
Foundation Center. He received his B.A. from Wesleyan 
University and M.A. and Ph.D. from Northwestern University.
    Welcome to all of you. Thank you for taking your time to 
share your expertise and your thoughts with us.
    And Secretary Oates, we will begin with you.

 STATEMENT OF JANE OATES, ASSISTANT SECRETARY, EMPLOYMENT AND 
       TRAINING ADMINISTRATION, U.S. DEPARTMENT OF LABOR

    Ms. Oates. Thank you, Mr. Chairman.
    And special thanks to my congressman, Mr. Holt, who I am 
very proud of. And he made all my work worthwhile while I was 
there, as did Governor Corzine. Thank you very much.
    I want to thank all the members of the committee for 
holding this hearing. As the ranking member said, this is an 
important topic and I so appreciate, Mr. Kline, your mention of 
the Workforce Investment Act reauthorization. We are behind you 
and we are open to working with this committee to get that done 
as soon as possible.
    Giving young people--in respect for your time I will not 
read my testimony; I will summarize--but giving young people 
the opportunity to gain the skills that they need to enter and 
be successful in the workplace is critical for their future and 
the future of our nation. The harsh situation for young job-
seekers is most felt by low-income youth, and in particular 
low-income youth of color.
    I know that the members of this committee understand the 
hurdles that these young people face. Every piece of 
legislation, every speech you give clearly tells the American 
public that you get it.
    Nearly 3 million young people from 16 to 24 are not in 
school and do not have a high school diploma. At least 1.7 
million out-of-work youth are unemployed today and actively 
looking for work.
    They are looking for work without the adequate academic or 
occupational skills. They are looking for work without a work 
history and without a support system to help them gain the 
industry-recognized skills or the degrees that will help them 
compete.
    According to a 2009 study by the Center for Labor Market 
Studies at Northeastern, the nation's teen labor market has 
been continuously declining over the last 9 years, 
establishing, as Congressman Kline said, a new historical post-
World War II low level of employment for this age group. And in 
2009 we add to their hurdles. Many of their parents and 
guardians, their grandparents, their aunts and uncles are 
unemployed, underemployed, or living in fear of losing their 
jobs.
    Through the Recovery Act funds, President Obama and this 
Congress resurrected a standalone summer employment program 
this summer. The recovery dollars provided subsidized work 
opportunities to over 280,000 young people.
    Governors, mayors, and workforce staff worked on a very 
short timeline to organize a program that had not been funded 
by the federal government in over 10 years, and in my opinion 
they did a remarkable job. At a time when private sector 
employers were dealing with downsizing and struggling to stay 
in business, they opened their doors to young people to show 
them the value and dignity of work, to give them a boost or 
sometimes a start to a resume that will be the foundation of 
their future.
    The impact of this experience is difficult to fully 
capture. While we can tell you the numbers, only the young 
people can tell you how this one job this summer opening their 
eyes and their minds.
    I got the chance to meet with some of them, and for those 
young men and women with whom I met--and I am sure you had the 
same experience--it was a profound experience. Economists 
argue, and I am not going to get into that argument, that for 
every dollar--I am sure my colleagues on the panel will--for 
every dollar a teen earns it has an accelerator of $3 in the 
local economy. I will leave that to them to refute or prove.
    But what I can tell you is, I brought three binders with 
me. I have 30 binders of letters that were sent to the 
President this summer by young people without any push from any 
adult to thank him and thank you for this experience.
    When I met with them and I read these letters, I can tell 
you that they are all kinds of kids. They were 14 to 24, they 
were white, they were African American, they were Latino, they 
were Asian. I met with them and they told me some of them had 
stayed in school and some of them had dropped out; some of them 
had been incarcerated and some of them were just without a 
clear path.
    They had no direction for how to get from where they were 
that day to where they aspired to be. But in their words, what 
did they learn this summer?
    They learned that work was hard, but once you learned how 
to do it your job got easier. They learned that people are nice 
to you on the job. They learned that the more you know the more 
you get paid, and that the skills on the job are related to the 
stuff they learned in school.
    People at the workplace measured and did math. People at 
the workplace wrote and edited each other's writing. And when 
you forgot to put something on a list or in a memo then 
somebody else on the job couldn't do their job.
    And everyone told them to take the hard courses. Everyone 
told them to take math and science. Everyone told them that 
staying in school was easier than going back and getting your 
GED and that going to college quite simply meant you got paid 
more.
    They learned how to dress; they learned how to act; they 
learned how to get to work on time; and they learned that if 
you miss work your job doesn't get done and you let your team 
down.
    Some loved their jobs. They wanted to go there and work 
there as an adult. And some of them learned they never wanted 
to do that job again and it was the only reason they would stay 
in school.
    And what did they do with their money? Some of them gave it 
to their parents to help pay bills. Some of them told me--many 
of them, in fact--told me that their parents are afraid of 
losing their houses or losing their apartment.
    Many of them bought clothes for themselves, and some told 
me they bought those clothes for younger siblings. Some of them 
told me that they spent the money on movies and McDonald's. And 
many of them told me they were using the money to buy gas for 
their car or to buy a used car so that they could go to the 
community college that fall.
    The summer employment program was not perfect. I admit 
that. But it was an amazing effort that yielded important 
results. It put money into local economies and it taught these 
young people, at least the ones that I met with and the ones 
that I got the copies of the letters from, it gave them a huge 
life lesson.
    We are taking a serious look at the lessons we learned with 
this summer program. If given the gift of a program in 2010, I 
am here to tell you we will present wider opportunities. We 
will help local areas more efficiently recruit, screen, and 
manage their program. And we will give them a better chance to 
customize the jobs they offer young people with their 
aspirational levels.
    When I meet with them, it is important for me to tell you 
that the first thing they do is thank you. They ask me to thank 
the Congress and thank the President because they tell me that 
I am the closest they are going to get. And I turn back and 
tell them, ``Not if you keep going to school. You will be in my 
job and in better jobs.''
    Thank you so much for this opportunity, and I look forward 
to your questions.
    [The statement of Ms. Oates follows:]

  Prepared Statement of Hon. Jane Oates, Assistant Secretary for the 
    Employment and Training Administration, U.S. Department of Labor

    Good morning, Chairman Miller and Members of the Committee. Thank 
you for extending the invitation to appear before the Committee to 
discuss youth employment--an issue with critical implications today, as 
well as for our nation's economic future.
    America's youth often face significant barriers to education and 
employment. Our schools struggle to keep young people engaged; and we 
applaud the efforts of Secretary Duncan to focus on high school reform 
and on ensuring that all students are prepared for education beyond 
high school and careers. However, the Department of Labor shares a 
responsibility to increase the number of youth attaining degree and 
certificates, to re-engage out of school youth and to connect the 
learning in school with opportunities in the job market. According to 
Northeastern University's Center for Labor Market Studies published in 
August 2009, ``The nation's teen labor markets have been in a steep, 
nearly continuous decline over the past nine years, establishing new 
historical, post-World War II lows during the past three summers'' and 
teens will continue to face declining employment rates through 2010. It 
is important that we focus on our economic future by ensuring that 
young people are prepared for, and have opportunities to experience, 
the world of work.
    Secretary of Labor Hilda L. Solis has articulated a clear vision to 
guide our work--``good jobs for everyone.'' To achieve this goal, young 
people need to acquire the work-readiness skills and knowledge to 
prepare them to succeed in a knowledge-based economy. Ensuring that all 
young people are well-prepared for postsecondary education and the 
workforce is a critical factor for their future. It is not always easy 
for youth to find good jobs on their own. Young workers historically 
have the poorest employment prospects, and those prospects are worse 
during difficult economic times. Current data indicate that there are a 
number of challenges facing America's youth.
    According to the U.S. Census Bureau, Current Population Survey, 
2009 Annual Social and Economic Supplement data, approximately 5.3 
million 18- to 24-year olds are living in poverty. In addition, 
according to Bureau of Labor Statistics Employment and Earnings April 
2009 data:
    3 million youth ages 16 to 24 years are not in school and do not 
have a high school diploma;
    4.3 million out-of-school youth ages 16 to 24 who have not gone on 
to college are not working; and
    1.7 million out-of-school youth ages 16 to 24 who have not gone on 
to college are unemployed and looking for work.
    President Obama is committed to addressing the challenges facing 
youth, both in school and out of school. To reach his goal of being 
first in the world in college completion by 2020, we must keep students 
on track to graduation, raise graduation rates, and ensure students who 
have disengaged have opportunities to re-connect to education and jobs. 
Blending work and learning makes education relevant and helps to 
prepare youth for successful careers. In addition, the President 
supported providing additional funds to provide work experience 
opportunities and other employment services to our country's youth 
through the American Recovery and Reinvestment Act of 2009 (Recovery 
Act).
    The Workforce Investment Act (WIA) Title I youth formula program 
allocates funds to state and local areas to deliver employment and 
training services to low-income youth ages 14 to 21 years who face 
barriers to employment. Through the Recovery Act, the Department of 
Labor invested an additional $1.2 billion in WIA youth formula funds to 
provide subsidized work opportunities to over 280,000 low-income youth 
as of the end of August 2009. The Recovery Act also allowed ETA to 
increase the age of eligibility for youth services to 24 years of age 
and support other services to this population.
    By the end of August 2009, approximately $400 million of Recovery 
Act youth funds had been spent, a majority of which supported summer 
youth work experiences. In line with President Obama and Secretary 
Solis' belief that green jobs will be a key driver of America's 
economic revitalization and sustained economic stability, ETA 
encouraged summer youth programs to develop work experiences that would 
expose young people to jobs in the emerging ``green'' economy. For 
example, in Philadelphia, Pennsylvania, many youth received a 
combination of postsecondary training with worksite experiences in 
green jobs. Some of these youth participated in a partnership with 
Temple University, which provided them with Environmental Research 
Internships and experience working with researchers in the field. In 
another project run by Congreso de Latino Unidos and Harcum College, 40 
youth were exposed to training and work experiences that promoted 
energy efficiency.
    Local workforce areas across the country met the challenge to 
implement summer youth employment programs in an extremely limited 
timeframe. By the end of August, over 280,000 youth had participated in 
summer employment funded by the Recovery Act. The Government 
Accountability Office (GAO) recently completed a review of the 
implementation of the WIA summer youth program funded under the 
Recovery Act. GAO found that states were generally successful in 
serving increased numbers of youth despite having only four months to 
get the program running. Most states met or exceeded their target 
numbers for youth to be served by mid-August. However, GAO also found 
limited instances where local areas faced challenges in implementing 
summer programs, including determining and documenting youth 
eligibility and failing to pay youth on time. The Department is working 
to address these issues. GAO had two recommendations for the 
Department. First, they suggested that we provide further guidance on 
what constitutes a green job and, second, that we provide more clarity 
on work-readiness outcomes. We always appreciate GAO's work and 
continue to use their suggestions for improvement.
    The Department is encouraging exposure to green industries, 
including green construction, through all DOL youth programs--
YouthBuild, Job Corps, and the WIA formula program--as well as 
Registered Apprenticeships, which can provide a pathway for youth into 
good jobs. While the Job Corps program is not currently administered by 
ETA, it provides an important strategy for serving youth, and the 
Department has proposed to move the administration of the Job Corps 
program into ETA prior to the start of Program Year 2010 to foster a 
comprehensive approach to youth programs. The Recovery Act funding has 
enhanced our efforts in these areas with youth programs and will 
continue to impact our curriculum.
    For example, the Recovery Act provided $50 million for YouthBuild 
in the current and upcoming program years. YouthBuild provides job 
training and educational opportunities for low-income or at-risk out-
of-school youth ages 16 to 24. They acquire academic and work-related 
credentials while constructing or rehabilitating affordable housing for 
low-income or homeless families in poor communities. The YouthBuild 
program creates opportunities to re-engage out-of-school youth in 
education, skills training, and leadership development while serving 
their community.
    About 20 YouthBuild programs are far ahead of the curve in 
providing training in green construction techniques, and knowledge and 
use of sustainable building materials. We believe that these 
experiences will help young participants compete for jobs in a changing 
construction sector.
    In addition, the Department has introduced a new Apprenticeship 
Training Program, designed specifically for YouthBuild to support the 
transition of our young people into apprenticeship opportunities. In 
Portland, Oregon, the YouthBuild program created a registered 
apprenticeship with the Laborers Union to train its students in 
weatherization skills, and created green career tracks in several 
fields for its YouthBuild graduates in partnership with Portland 
Community College.
    In order to maximize the effect of services to young adults, it is 
critical that we work with the Department of Education to build a solid 
foundation to support career pathways for all youth. The 
reauthorization of WIA presents an opportunity to build programs across 
funding streams to accelerate our progress. The Departments of Labor 
and Education have already been working to articulate a framework for 
discussion on WIA reform. While the Administration has not yet put 
forth formal reauthorization principles, the Department has held many 
listening sessions with stakeholders concerning WIA reauthorization. 
Here are some of the ideas we the agencies have about how best to serve 
at-risk youth:
    Exploring strategies that integrate compensated work activities and 
education.
    Emphasizing programs that are ``proven'' (through rigorous 
evaluation) or ``promising'' (based on a record with positive outcomes 
and operation to scale).
    Partnerships among the workforce system partners and secondary and 
postsecondary school systems. For example, State and locally-based 
employers, criminal justice systems, various social service providers, 
and others should be engaged to provide services to meet the wide 
variety of needs of at-risk youth.
    The collection of accountability performance measures that 
recognizes gains over time, avoids the selection of participants based 
on anticipated performance success, while serving those with employment 
needs.
    Serving in-school and out-of-school at-risk youth, aged 16-24, 
including: 1) young people in high school who are off track and at high 
risk of dropping out--especially those with poor reading or math 
skills; 2) youth who have already dropped out; and 3) high school 
graduates with poor skills who have failed to obtain jobs, noting these 
categories are fluid as individuals move in and out of school.
    Simplifying program eligibility and creating a convenient and easy 
ways to access programs.
    Sharing data related to State certification tests and other 
performance measures across Federal departments and programs; and 
supporting States in improving interoperable data systems that help 
identify strategies to increase student persistence and completion and 
better meet the needs of the labor market.
    We are actively encouraging WIA youth program investments that 
address the needs of the hardest-to-serve youth, including a specific 
focus on high school dropouts and out-of-school youth disconnected from 
education and work. We need to develop strategies for serving these 
youth that include a strong academic focus with an opportunity to 
obtain a high school diploma or its equivalent and transition into 
alternative education and career pathways.
    Finally, we need to direct resources to high-quality research and 
evaluations of youth programs. The Department is committed to rigorous 
evaluations and it is important that we use findings from research and 
evaluations to identify and disseminate successful strategies and 
promising practices, be brave enough to discontinue programs and 
approaches that are not working, find ways to improve existing 
programs, and create successful models or blueprints for replication. 
The Department is currently investing in a rigorous evaluation of the 
YouthBuild program as well as an implementation evaluation of the youth 
programs funded through the Recovery Act to better understand how these 
programs work and inform policy making. In addition, the Department is 
interested in data that will help us understand the long-term effects 
of youth training programs. In the FY 2010 budget request, the 
Department requested $15 million for the new Workforce Data Quality 
Initiative which will leverage Department of Education investments to 
support the development of longitudinal data systems that track 
individuals' progress through the education system and into the 
workforce; a significant increase for ETA's research and evaluation, 
and a $5 million Department-wide evaluation initiative.
    Research is quite clear that this recession has had a huge impact 
on young people seeking employment. It was critical that we intervened 
in summer 2009 by providing summer employment experiences and other 
services for youth. The lessons we all learned in our first jobs made 
lasting impressions on our decisions about work over the course of our 
lifetime. For this generation of young people, the education and skills 
that they need to fully engage in meaningful work is fundamental to 
their success and the future of our country.
    This concludes my prepared remarks, and I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Segal, welcome.

 STATEMENT OF MATTHEW SEGAL, FOUNDER AND NATIONAL CO-CHAIR, 80 
                         MILLION STRONG

    Mr. Segal. Thank you. Thank you, Mr. Chairman----
    Chairman Miller. You know, I didn't explain--I am sorry I 
didn't explain the light system for people who haven't 
testified before, but almost everybody has. It is green, orange 
with a minute to go, and red when you should wrap up. Thank 
you.
    Mr. Segal. Thank you, Chairman Miller, Ranking Member 
Kline. My name is Matthew Segal and I am the executive director 
of the Student Association for Voter Empowerment, otherwise 
known as SAVE. I am also a founder and national co-chair of the 
80 Million Strong for Young American Jobs Coalition, which has 
organized nearly 30 nationally leading youth organizations to 
tackle the staggering rate of unemployment, increasing cost of 
a college education, and growing debt our generation faces.
    Co-chaired by SAVE, the Roosevelt Institute Campus Network, 
and Mobilize.org, our aim is to engage and direct or economic 
future by discussing the financial challenges of today's 
workers, proposing solutions to these challenges, and packaging 
these recommendations into legislative proposals at the 
federal, state, and municipal level. Born after 1980, the 
millennial generation is 80 million strong, as a demographic, 
and more than 23 million of us voted in the 2008 election.
    As my fellow panelists have exhibited and will exhibit, the 
statistics are dire. Youth unemployment is over 18 percent, 
income averages are shrinking, especially for young minorities, 
and the prospect of affording a higher education is becoming 
more of a dream and less of a reality.
    As some economists have put it, we 20-somethings are the 
first generation likely to be less better off than our parents. 
So on July 14th and 15th in the U.S. Capitol Visitors Center, 
our coalition assembled over 100 diverse young people from more 
than 30 states around the country for a 2-day summit focused on 
addressing many of these stark statistics. Numerous members of 
Congress spoke with our coalition and we worked collaboratively 
to endorse various policy platforms that will create jobs and 
economic opportunities for the 80 million members of the 
millennial generation.
    As one of our summit participants who recently received a 
dual after having been on the dean's list throughout college 
stated, ``Our first instinct is not to complain. We went to 
college to get a job and not to add to the nation's 
unemployment statistics.''
    And like our summit participant, our coalition is not here 
today to complain. We came together because we want to 
contribute to the next stage of America's prosperity and we 
have ideas on how to do so.
    Our proposals center on four areas: increasing 
entrepreneurship resources, student debt reform, access to 
public service careers, and the creation of mission-critical 
jobs that tap young talent. Study after study shows that young 
people are more inclined to engage in public service than ever 
before.
    For instance, 441,000 more young adults volunteered in 2008 
than in 2007, but as internships become more of a prerequisite 
and less of a distinction with over three-quarters of employers 
saying that they are more likely to hire graduates with prior 
internship experience, millions of Americans are forced to 
forego public service every year because of the low or 
nonexistent wages associated with it. This economic divide is 
exemplified by students whose parents can afford to subsidize 
an internship versus those who cannot.
    Mr. Chairman, representative democracy depends on the 
participation of all of its citizens, and disallowing the 
majority of young people to serve their government because of 
financial hardship means condoning a discriminatory system. One 
way Congress could exhibit its commitment to socioeconomic 
diversity among interns is through the creation of a fellowship 
program that would place at least one paid intern in every 
congressional office to increase access for qualified, need-
based young people.
    Using the D.C. minimum wage standard of $7.25 an hour 
combined with a 40-hour work week, a government intern would 
get $2,900 in stipends for a 10-week long internship. This can 
be implemented in all 435 congressional offices for 52 weeks a 
year for approximately $6.5 million, giving over 2,250 young 
Americans the unprecedented active citizenship opportunity to 
work in their government.
    We also support increased scholarships funding and training 
programs for critical sectors of the economy, such as the 
health care industry. Every 8 seconds one of 78 million baby 
boomers will turn 60 years old, and young people want to take--
we young people want to take responsibility for our parents' 
and grandparents' health by providing them with the quality and 
professional care that they deserve.
    An estimated 200,000 nursing positions unfilled at U.S. 
hospitals and nursing homes, and we are ready to fill this 
shortage, but investment in training programs is necessary so 
that those without 4-year college degrees can also enter the 
nursing and physician assistance field.
    Finally, green jobs are not only a must in terms of 
protecting our environment, but they can also reinvigorate the 
middle class by providing thousands of new career opportunities 
to workers who are traditionally left behind. We applaud many 
of the workforce revisions in the American Clean Energy and 
Security Act and encourage the House to introduce a version of 
the Green Collar Youth Jobs, Education, and Training Stimulus 
Act, Senate bill sponsored by Senators Murray and Stabenow, 
which gives appropriations to DOL to provide youth with 
education, paid jobs, and training in vocations such as the 
weatherization and energy retrofitting of low-income homes and 
buildings.
    In closing, we are confident that many of these proposed 
programs will help pay for themselves many times over again in 
the strong middle class they build, unemployment gap they fill, 
and market value they create. We look forward to working with 
the members of this committee to achieve nothing less. Our 
futures depend on it.
    I thank you for the opportunity to testify and look forward 
to your questions.
    [The statement of Mr. Segal follows:]

   Prepared Statement of Matthew Segal, Executive Director, Student 
                Association for Voter Empowerment (SAVE)

    Chairman Miller, Ranking Member Kline, I thank you for the 
opportunity to present testimony today.
    My name is Matthew Segal and I am the executive director of the 
Student Association for Voter Empowerment, otherwise known as SAVE. A 
national non-profit organization founded and run by young people, our 
mission is to bring young Americans into the political process by 
eliminating barriers to electoral participation and encouraging youth-
led policy solutions that address significant national challenges. 
Currently, SAVE represents a constituency of over 10,000 students with 
chapters on more than 35 college campuses across the country.
    I am also a founder and national co-chair of the 80 Million Strong 
for Young American Jobs coalition, which has organized nearly 30 
nationally leading youth organizations to tackle the staggering rate of 
unemployment, increasing cost of a college education, and growing debt 
our generation faces. Co-chaired by SAVE, the Roosevelt Institute 
Campus Network, and Mobilize.org, our aim is to engage and direct our 
economic future by discussing the economic challenges of today's young 
workers, proposing solutions to these challenges, and packaging these 
recommendations into legislative proposals at the federal, state, and 
municipal level. Born after 1980, the millennial generation is 80 
million strong as a demographic, and more than 23 million voted in the 
2008 election.\1\
    Mr. Chairman, the current economic crisis is disproportionately 
affecting young Americans, digging a hole that will place a long-term 
burden on our generation as we attempt to build a stronger future 
workforce. Among the many national and global challenges today's 20-
somethings face, we are the first generation likely to be less better 
off than our parents. In order to reinvigorate our economy, we must 
overview the scope of the problem while identifying new fields, 
industries, or career pathways that shape a robust 21st century labor 
force.
    According to the July 2009 Bureau of Labor Statistics, 4.4 million 
youth (ages 16-24) were unemployed, up nearly 1 million from the 
previous year. The youth unemployment rate stood at 18.5 percent, the 
highest July rate on record since 1948, and roughly double the national 
average. Among African American youth, unemployment was 31.2 percent, 
while for Latinos it stood at 21.7 percent. In terms of summer jobs, 
the national employment population for teenagers (ages 16-19) was a 
record low 28.9 percent.\2\
    Income is also shrinking. According to Demos, the average earnings 
of full time workers ages 25 to 34 are lower today than they were a 
generation ago, except among women with college degrees. And young men 
without a college education are earning 29 percent less than they did 
in 1975. Income disparities in recent years are also acute--as typical 
incomes for White young adults are 25 percent higher than African 
Americans and 30 percent higher than Latinos. Nearly 18 percent of 18-
24 year olds are living below the official poverty line.\3\
    The cost of an education is also contributing heavily to our 
generation's economic hardship. Two thirds of students holding a 
bachelor's degree graduate with more than $20,000 in debt, twice as 
much as a decade ago. Law and medical school graduates have it even 
worse, with roughly $76,000 and $155,000 dollars of debt respectively. 
Approximately 23 percent of freshman borrowers drop out of school 
because of debt; and the college enrollment gap between Whites and 
African American students is 10 percentage points, while the gap 
between Whites and Latino students is 17 percentage points.\4\ 
Employers expected to hire 22 percent fewer new grads from the college 
Class of 2009 than they actually hired from the Class of 2008, and an 
additional 7 percent fewer graduates are expected to be hired from the 
Class of 2010 according to the National Association of Colleges and 
Employers (NACE).\5\
    Mr. Chairman, on July 14th and 15th in the Capitol Visitors Center 
in Washington, DC, we assembled over 100 diverse young people from more 
than 30 states around the country for a two day summit focused on 
addressing many of these stark statistics. Numerous members of 
Congress, including some members of this committee, such as Mr. 
Hinojosa, spoke with our coalition, and we worked collaboratively to 
endorse various policy platforms that will create jobs and economic 
opportunity for the 80 million members of the millennial generation.
    Our proposals center on four areas: increasing entrepreneurship 
resources, student debt reform, access to public service careers, and 
the creation of ``mission critical'' jobs that tap young talents. 
Because several of our entrepreneurship ideas are more salient to the 
House Committee on Small Business and because we are thrilled that the 
House of Representatives recently passed the Student Aid and Fiscal 
Responsibility Act, our recommendations today will mainly focus on 
increasing public and civil service opportunities in mission critical 
industries.
    Recent data shows that young workers and students are highly 
compelled to engage in public service more than ever before. As 
President Obama reinvigorated the Kennedy call to service throughout 
his campaign, over 441,000 more young adults (ages 16-24) volunteered 
in 2008 than in 2007, representing an increase from about 7.8 million 
to more than 8.2 million. And since Congress passed the Serve America 
Act several months ago, there has also been a 217 percent increase in 
applications to AmeriCorps programs.\6\
    While this data is quite encouraging, there is more that can be 
done to establish volunteer to career pathways. Millions of Americans 
forego public service every year because of low or non-existent wages 
associated with it, and a mounting issue of social stratification is 
propagating with regards to civil service and internships. For 
instance, the salary for AmeriCorps varies between $7,640 and $15,280 
per year, placing participants well below the poverty line.\7\
    A recent New York Times article from August 8, 2009 also discussed 
the growing number of college graduates whose parents are paying 
thousands of dollars to services that will help them accrue a summer 
internship. One of the featured internship providers, University of 
Dreams, charges $8000 per person, guaranteeing an 8 week internship 
placement with dorm housing in New York City. The Washington Center, 
here in our nation's Capitol, charges participants a $5,195 program fee 
in addition to a $60 application fee. If students choose to pay $3,395 
for 10 weeks of prearranged housing, which more than 90 percent do, the 
final cost amounts to $8,650. These figures also do not include weekend 
meal costs or any entertainment expenses, both of which add hundreds of 
dollars to the price of an internship.\8\
    An economic divide is exacerbating between students whose parents 
can afford to subsidize an internship vs. those whose cannot. Yet 
internships are becoming more of a prerequisite and less of a 
distinction by the day. This is because students with internship 
experiences have a clear leg up in getting hired upon graduating. 
According to the National Association of Colleges and Employers, more 
than three-quarters of employers say they would prefer to hire new 
college graduates who have relevant work experience such as an 
internship.\9\ Additionally, according to the career website Vault, 
roughly 90 percent of college students plan to complete an internship 
before graduating, even though about half of all internships are 
unpaid.
    As Anya Kamenetz from the New York Times notes, ``Lost wages and 
living expenses are significant considerations for the two-thirds of 
students who need loans to get through college. Since many internships 
are done for credit and some even cost money for the privilege of 
placement overseas or on Capitol Hill, those students who must borrow 
to pay tuition are going further into debt for internships.'' \10\ And 
in a difficult economy, internships without pay are becoming the norm 
for the 80.3 percent of young adults who graduate college without a 
job.\11\
    Above all, and at its core, this is also an issue of 
representation. Representative democracy depends on the input, 
perspective, and experience of all of its citizens, not just the 
privileged few. If the majority of young America is saddled with debt 
in order to work pro-bono, or prevented from the active citizenship 
experience of serving their government because of financial hardship, 
then we are condoning a discriminatory system. This is not to mention 
the homogeneity we are institutionalizing or the diversity, 
qualifications, or incredible talent we are not tapping. Ironically, it 
is the citizens who need representation the most who currently are the 
least likely to access these civil service or internship opportunities.
    Although there have been some significant reforms in the right 
direction such as the $1.2 billion in the economic recovery package to 
help find jobs or part time work for those aged 14-24, our coalition 
also proposes the following:
    1. One way the Congress could exhibit its commitment to socio-
economic diversity among interns is through the creation of a 
fellowship program that would place at least one paid intern in each 
congressional office to increase access for qualified, need-based young 
people. Using the District of Columbia's minimum wage standard of $7.25 
an hour and a 40-hour workweek, a government intern could get $2,900 
for a ten-week long internship. For less than 1.3 million dollars, this 
can be implemented in every congressional office. If this program was 
continued for all 52 weeks a year in every congressional office, it 
would cost approximately 6.5 million dollars, while giving over 2,250 
young Americans the unprecedented active citizenship opportunity to 
work in their government.
    2. Another way to ensure economic opportunity for low income 
Americans who wish to seek advanced degrees is by creating incentives 
for them to help pay for school in return for service. Fortunately, 
there is an existing amendment that has passed in conjunction with the 
Higher Education Opportunity Act that seeks to do this. The John R. 
Justice Prosecutors and Defenders Incentive Act of 2008 directs the 
Attorney General to repay student loans for borrowers who agree to 
remain employed, for at least three years, as federal, state or local 
criminal prosecutors or public defenders. It also allows a borrower and 
the Attorney General to enter into an additional loan repayment 
agreement, after the required three-year period, for a successive 
period of service paying back a borrower up to $10,000 per calendar 
year and $60,000 total. Unfortunately however, we have not seen any 
appropriation towards this platform. We are pleased to see that this 
committee backed significant workforce investments in HR 3200 for 
aspiring medical students as well, such as increased funding for the 
National Health Service Corps, which is similar to the John R. Justice 
provision, only applied to medical students.
    3. We support increased scholarships, funding, and training 
programs for new mission critical health care industry jobs. Since 
every 8 seconds, one of 78 million Baby Boomers will turn 60 years old, 
geriatric care will create a wealth of jobs to those with proper 
training. This area is an excellent way to show that the Millennial 
Generation is ready to accept responsibility from the Baby Boomers and 
provide them with the quality and professional geriatric care that they 
deserve. Electronic medical records, which will increase efficiency in 
the medical community, can also provide young American jobs both in the 
IT sector and for medical professionals. Creating jobs in preventative 
medicine, which will lead to better healthcare and decreased cost, is 
another way to adapt to a changing healthcare climate in a manner that 
will increase opportunities for Millennials. While we need to create 
jobs, we also need to ensure that the job shortages that exist are 
filled. Currently, there is a shortage of nursing jobs. An estimated 
116,000 registered nurse positions are unfilled at U.S. hospitals and 
nearly 100,000 jobs go vacant in nursing homes.\12\ The average age of 
a nurse is 47 years old.\13\ Young Americans are ready to fill this 
shortage, but we need more investment in training programs so that 
those without 4 year college degrees can also enter the nursing and 
physician assistance industries. Increasing the payment of nursing 
faculty is an imperative step in achieving this. According to a 2006 
survey by The Nurse Practitioner, the average salary of a master's 
prepared nurse practitioner is $72,480. By contrast, the American 
Association of Colleges and Nursing (AACN) says master's prepared 
nursing faculty earn an annual average salary of $55,71. AACN also 
reports that U.S. nursing schools in 2005 turned away 41,683 qualified 
applicants to baccalaureate and graduate nursing programs and nearly 
three-quarters--73.5 percent--of these nursing schools blamed faculty 
shortages for such rejections.\14\
    4. We support creating new mission critical jobs in cyber security 
fields. A recent study by the Partnership for Public Service found 
broad agreement among federal officials and outside experts that the 
government has a cyber security workforce problem--a serious shortage 
of technically sophisticated professionals capable of combating the 
growing cyber threat from hackers, criminals, foreign governments and 
terrorist organizations. Congress should lead a campaign to encourage 
universities to offer, and students to pursue, cyber security 
educational programs. Congressional funding should also be increased to 
expand scholarships in computer science and cyber security in return 
for a commitment to government service.
    5. Green jobs are not only mission critical in terms of protecting 
our environment, curbing pollution and making our infrastructure more 
sustainable and energy efficient, but they can also reinvigorate the 
middle class by providing thousands of new career opportunities to 
workers who are traditionally left behind. We applaud many of the 
workforce provisions in the American Clean Energy and Security Act, 
such as the Green Construction Careers Demonstration Project, which 
will provide grants to low income communities that train workers in 
clean energy, including wind, solar and geothermal fields. It will also 
provide training in recycling and waste reduction, water and energy 
conservation, and sustainable agriculture and farming. We additionally 
encourage the House to introduce a version of the Green Collar Youth 
Jobs, Education, and Training Stimulus Act, a senate bill sponsored by 
Patty Murray and Debbie Stabenow. This legislation gives appropriations 
to the Secretary of Labor to provide youth with education, paid jobs, 
and training in green-collar industries, including the weatherization 
and energy retrofitting of low-income homes and buildings.
    6. We propose establishing a youth innovation fund. The Serve 
America Act allocated $50 million dollars for FY2010 for the creation 
of a social innovation fund. The fund makes grants to existing grant 
making institutions which must be matched by the institution. The 
groups then make subgrants to different non-profit organizations to 
support proven initiatives or promising innovations in low-income 
communities. We propose a youth innovation fund that would provide 
grants specifically to young entrepreneurs who launch socially 
conscious or community development ventures.
    We are confident that many of these proposed programs will pay for 
themselves many times over again in the strong middle class they build, 
unemployment gap they fill, and market value they create by spurring 
healthier, safer, and better educated career pathways. We also know 
that there are many other fields or industries to grow career 
opportunities, but what I have stated today reflects the specific ideas 
of our young membership. Working with the non-profit sector to match 
government funds is always an effective means of partnership--and we 
similarly encourage many philanthropists and corporations to direct 
their gifts towards programs that encourage workforce investment in 
order to build a more vibrant, 21st century economy.
    Mr. Chairman, Mr. Ranking Member: I thank you again for the 
opportunity to testify here today and welcome any questions.
                                endnotes
    \1\ http://www.civicyouth.org/?p=323
    \2\ http://www.bls.gov/news.release/youth.nr0.htm
    \3\ http://www.demos.org/
publication.cfm?currentpublicationID=2C71F2BC-3FF4-6C82-
5C6F2D4C190AA787
    \4\ http://www.demos.org/
publication.cfm?currentpublicationID=2C71F2BC-3FF4-6C82-
5C6F2D4C190AA787
    \5\ http://www.naceweb.org/press/display.asp?year=&prid=297
    \6\ http://www.volunteeringinamerica.gov/assets/resources/
VolunteeringInAmericaResearchHighlights.pdf
    \7\ http://www.indeed.com/salary/Americorps-Member.html
    \8\ http://www.nytimes.com/2009/08/09/business/09intern.html
    \9\ http://www.naceweb.org/press/display.asp?year=&prid=294
    \10\ http://www.nytimes.com/2006/05/30/opinion/30kamenetz.html
    \11\ http://www.naceweb.org/press/display.asp?year=&prid=306
    \12\ http://www.reuters.com/article/domesticNews/
idUSTRE5270VC20090308
    \13\ http://findarticles.com/p/articles/mi--m0FSL/is--4--78/ai--
108967612/
    \14\ http://www.physorg.com/news79205125.html
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Stoneman?

     STATEMENT OF DOROTHY STONEMAN, PRESIDENT AND FOUNDER, 
                         YOUTHBUILD USA

    Ms. Stoneman. Chairman Miller, Ranking Member Kline, I am 
honored to testify and I am also delighted to be in the company 
of Assistant Secretary Jane Oates, because we work very 
closely. I am the founder and president of YouthBuild USA, 
which is a national nonprofit organization which has supported 
the development of the 226 local YouthBuild programs in the 
United States and has worked toward the evolution of its 
becoming a federal DOL program.
    Since its first authorization in 1992, 84,000 low-income 
young adults have produced 18,000 units of affordable housing 
in America's poorest urban and rural communities. DOL's 
YouthBuild program is the only federal program that offers 
disconnected young adults an immediately productive full-time 
role in the community while also providing equal measures of 
basic academic education toward a diploma or a GED, skills 
training toward a decent-paying job, leadership development 
toward civic engagement, adult mentorship and counseling toward 
overcoming personal problems, and participation in a supportive 
mini-community with a positive set of values.
    It attracts the most disadvantaged youth and produces a 
reliable shift in their values, attitudes, skills, and personal 
identity. The YouthBuild network is also adapting rapidly to 
meet the needs of the changing labor market and economy, 
teaching green construction skills while building energy-
efficient homes and positioning its graduates as a workforce 
prepared to weatherize and retrofit public and private housing. 
Some YouthBuild programs are also innovating by multiplying 
career paths to include health care and technology.
    YouthBuild programs welcome the most disadvantaged youth. 
Ninety-three percent enter without a diploma; 73 percent are 
young men; 78 percent young people of color; 100 percent poor; 
40 percent have been court-involved. Many are gang affiliated; 
most have virtually no family support.
    Yet just about half of them radically changed their lives. 
A Brandeis University study of 800 YouthBuild graduates up to 7 
years after graduation found that 75 percent of them were 
either in college, which none of them expected to be when they 
joined YouthBuild, or in jobs averaging $10 an hour.
    Sixty-five percent said they expected to live longer--an 
average of 32 years longer. Graduates often say, ``Without 
YouthBuild I would probably be dead or in jail. Instead I am in 
college, I have a job, I am taking care of my children, I aim 
to own my own home. I love YouthBuild. It changed my life.'' I 
have been hearing this for 30 years.
    In YouthBuild programs, how does it actually work? The 
young people split their time evenly. They alternate weeks: a 
week in the construction site, a week in the YouthBuild 
alternative school. The alternative school has small 
classrooms, individualized attention--nothing like what they 
experienced prior to that. They alternate a week in the 
classroom and a week in the school, they are paid minimum wage 
for their time building homes, and increasingly these are built 
green.
    YouthBuild creates a small, manageable, community-based 
community of 30 to 200 students with a high staff-to-student 
ratio. And if you ask the students why does it work, they all 
say reliably, ``It is the staff. They care about me. The 
teachers, they care that I learn. Nobody ever cared about me 
like this before. I came here looking for a job or a GED, and 
instead I found a family and a future.''
    As a result, they develop a deep desire to give back and 
they become a positive force. As YouthBuild graduate Antoine 
Bennett once said, ``I used to be a menace to my community, and 
now I am a minister to it.'' And 10 years ago he was--or 15 
years ago he was in prison; now he is the executive director of 
a job training program in Sandtown, Baltimore.
    The act of building homes for people who need them, being 
seen as a hero instead of a hoodlum, changes their identity. 
They love being the ones who are doing something good instead 
of something bad. They are on the streets with tool belts 
instead of drugs. For the first time their grandparents are 
proud of them.
    Other young people ask, ``How can I do what you are doing? 
How do I get into YouthBuild?'' And as a result, in every 
community two to 10 times as many young people are lining up at 
the door as there is funds to let them in.
    Now, there is a formula for success, which I don't have 
time to outline, that has 12 components of this program that 
have to be in place for it to work. Every YouthBuild program is 
run by a nonprofit, community-based organization or local 
public agency with deeply rooted leadership.
    Some of them are autonomous agencies, like a community 
development corporation; some of them are local affiliates of 
Urban League, YMCA, the CORE Network. The entire system 
operates as a dynamic public-private partnership with national 
direction from DOL and YouthBuild USA and local roots, linking 
the power of government with the creativity of social 
entrepreneurs.
    Our goal is to open the doors of YouthBuild to every young 
person knocking. The Obama administration and our champions in 
Congress have pointed the way to expand from 10,000 young 
people a year to 50,000. That would be a great thing.
    A recent study showed every dollar spent on a court-
involved youth in YouthBuild provided a return on investment of 
a minimum of $10.80, and up to $43, and that the return on 
investment for getting a high school dropout back on track to a 
high school diploma is at least $300,000. It is an investment 
worth making.
    My written testimony has four testimonies from young 
people. That is really what you should read to get the deeper 
spirit of YouthBuild. One of those testimonies is written by 
Wayne Whack, from YouthBuild Philadelphia, and I am happy to 
have some YouthBuild students here with me.
    Thank you very, very much.
    [The statement of Ms. Stoneman follows:]

    Prepared Statement of Dorothy Stoneman, President and Founder, 
                             YouthBuild USA

    Chairman Miller, and Senior Republican Member Kline, thank you for 
inviting me to testify today. My name is Dorothy Stoneman. I am the 
president and founder of YouthBuild USA, a national non-profit 
organization which has guided the development of the YouthBuild network 
of more than 225 local programs that act in collaboration to improve 
their outcomes and impact. I started the first YouthBuild program in 
East Harlem 30 years ago, and have since participated in its evolution 
to a federal DOL program enabling tens of thousands of young people to 
rebuild their communities and their own lives.
    Since 1992, when the first federal YouthBuild authorization was 
passed, 84,000 YouthBuild students have produced 18,000 units of 
affordable housing in over 225 of America's poorest urban and rural 
communities, while pursuing a high school diploma or GED, and preparing 
for college or for careers in construction, and internalizing the 
values and skills to serve as good citizens.
A Unique Program
    DOL's YouthBuild program is the only federal program that provides 
disconnected young adults an immediately productive role in the 
community while also providing equal measures of basic education toward 
a diploma or GED, skills training toward a decent paying job, 
leadership development toward civic engagement, adult mentorship toward 
overcoming personal problems, and participation in a supportive mini-
community with a positive set of values. It attracts the most 
disadvantaged youth, and produces a reliable shift in their values, 
attitudes, skills and personal identity.
    The YouthBuild network is also adapting rapidly to meet the needs 
of the changing labor market and economy, teaching green construction 
skills while building energy-efficient homes and positioning its 
graduates as a workforce prepared to weatherize and retrofit public and 
private housing. We were very proud in March when First Lady Michelle 
Obama joined us on the Mall to celebrate YouthBuild's 30th Anniversary 
and witness our Green Training Academy.
    Some YouthBuild programs are also innovating by multiplying career 
tracks beyond construction to add health care and technology, 
developing systems to support graduates through to the acquisition of 
post-secondary credentials, and under the guidance of the Department of 
Labor and the AFL-CIO developing a formal course that will enable 
graduates to step fully prepared into union apprenticeships.
Background Data
    YouthBuild programs welcome the most disadvantaged youth: 93% 
without a diploma; 40% adjudicated; 73% young men; 78% Black, Latino, 
or Native American. All are poor; many have been gang affiliated; most 
have almost no healthy family support. Yet just about half of those who 
enroll in YouthBuild radically change their lives.
    A Brandeis University study of 800 YouthBuild graduates up to seven 
years after graduation found that 75% were either in college or 
employed at jobs averaging $10/hour. 65% said they expected to live 
longer as a result of YouthBuild--an average of 32 years longer. In 
fact, most disconnected young men do not expect to live beyond age 25. 
Graduates often say, ``Without YouthBuild I would probably be dead or 
in jail. Instead I am working, going to college, taking care of my 
children, aiming to own my own home. I love YouthBuild. It changed my 
life.''
How and Why YouthBuild Works
    In YouthBuild programs low-income 16 to 24 year olds enroll full-
time for about a year. They split their time evenly between the 
YouthBuild alternative school where they work toward their GED or 
diploma in a highly individualized and supportive classroom, and the 
construction site where they build affordable housing for homeless and 
low-income people under skilled supervisors, often union journeymen, 
who teach them the skills they need to succeed at work. They generally 
alternate a week in the classroom with a week on the construction site. 
They are paid minimum wage for their work building homes. Increasingly 
these homes are built green and the students are obtaining industry-
recognized certifications and learning the skills to be employed in the 
new green economy.
    At the same time, students are offered personal counseling to help 
solve all manner of personal problems. They are members of a supportive 
community of peers and adults dedicated to each other's success. They 
internalize the ethic of service and are given leadership roles. They 
recite a daily pledge to become responsible caring leaders who respect 
others as they would like to be respected. For most, it is the first 
time they have experienced a safe, healthy, supportive, goal-oriented 
community that respects their inherent value and draws out their 
talents. There are many very talented young people who have lost their 
way, and who can become a real resource to their communities if offered 
the right opportunities to take charge of their lives.
    YouthBuild creates small manageable communities of 30 to 200 
students, with a high staff to student ratio. If you ask the students 
why YouthBuild worked for them, they always say, ``It's the staff and 
the teachers. They care about us. They teach us how to act. They give 
us structure and help us set our own goals, and they show us that they 
really care that we succeed. Nobody ever cared about me like this 
before. I came to YouthBuild looking for a job and a GED, but I found a 
family and a future.''
    We encourage the staff to show they care by doing things that will 
surprise the students. For example, when a student doesn't show up, 
someone will call him, or go knock on his door. When a student is found 
through random drug testing to be using drugs he will be taken off the 
construction site and required to get counseling. When a student has to 
go to court for an offense committed prior to enrollment, a staff 
member will go with him, and maybe take a group of students dressed in 
suits to demonstrate social attachment to a respectable group. When he 
is applying for college, someone will drive him there and if necessary 
pay the application fee. When he is going for a job interview, someone 
will make sure he has the proper attire.
    As a result, YouthBuild students develop a deep desire to give 
back. They want to help others as they have been helped. They become a 
positive force. As YouthBuild graduate Antoine Bennett once said, ``I 
used to be a menace to my community; now I am a minister to it.'' Sure 
enough, Antoine is now the executive director of a local job training 
program in Sandtown, Baltimore; ten years ago he was in prison for a 
violent crime.
    The act of building homes for people who need them, being seen in 
the community as a hero instead of a hoodlum, changes their identity 
and relationship to society. They love making a difference. They love 
being the ones who are doing something good instead of something bad. 
They are on the streets with tool belts instead of drugs. For the first 
time in their lives their grandparents are proud of them and their 
neighbors admire them. Other young people ask, ``How can I do what you 
are doing? How can I get into YouthBuild?'' It's contagious. The result 
is that in every community 2 to 10 times as many young people apply as 
can be accepted, purely through word of mouth. In North Philadelphia 
1,000 young people apply annually for just 200 openings. Where will the 
other 800 go? There are precious few options. I have watched them leave 
the waiting room, crying.
The Formula for Success
    What attracts disconnected young people to YouthBuild is the 
comprehensiveness of the program coupled with the philosophy of 
profound respect for their intelligence and inherent value. The 
necessary program components are as follows:
    1) a way to resume their education toward a high school diploma and 
college;
    2) skills training toward decent-paying, family supporting jobs;
    3) an immediate, visible role contributing to the community that 
gains them respect from family, neighbors and adults generally;
    4) stipends or wages to sustain themselves and their children;
    5) personal counseling from admired and deeply caring adult role 
models, some of whom have the same background as the young people, who 
are committed to the young people's success, who also firmly challenge 
self-defeating behavior and attitudes;
    6) positive peer support with an explicit value system strong 
enough to compete with the streets;
    7) a mini-community to belong to that stands for something they can 
believe in and in which everyone is committed to everyone else's 
success;
    8) a role in governance, participating in making important 
decisions regarding staff and policies in their own program;
    9) leadership development and civic education that provide a vision 
of how they can play an important role in the neighborhood and society 
by changing the conditions that have harmed themselves and the people 
they love, and that gives them the skills to do so;
    10) assistance in managing money and building assets, as in 
scholarships, and personal budgeting;
    11) linkages and placements with colleges and employers; and
    12) support after graduation that goes on, sometimes for years, as 
a member of a supportive community.
    These program elements need to be implemented with profound respect 
for the intelligence and value of the young people, as well as for 
their culture. This comprehensive set could be adopted by many other 
programs for youth beyond YouthBuild.
    YouthBuild as an Example of a Public-Private Partnership for Social 
Innovation
    Each YouthBuild program is run by a non-profit community-based 
organization or local public agency with deeply rooted leadership and 
commitment to community development in America's poorest communities. 
Some of them are autonomous agencies and some are local affiliates of 
large national non-profits like Goodwill, YMCA, Urban League, or the 
United Way. The entire system operates as a dynamic public-private 
partnership, with national direction from DOL and YouthBuild USA and 
local roots, linking the power of government with the creativity of 
social entrepreneurs to create solutions to social problems. The non-
profit entities bring private funds into the system to generate 
innovation and flexibility. Most of the major private foundations have 
supported innovation in the YouthBuild network. The YouthBuild network 
is a well developed model of what will be created by the Fund for 
Social Innovations authorized in the Edward M. Kennedy Serve America 
Act.
Goals
    YouthBuild USA's goal is to open the doors of YouthBuild to every 
youth that is knocking and provide the resources to every community-
based agency competent to sponsor a YouthBuild program. Over 1,800 
communities have applied for YouthBuild funds and thousands of young 
people are turned away each year. The Obama Administration and our 
champions in Congress have proposed a steady expansion of YouthBuild to 
50,000 young adults per year. I ask your help in making that possible 
through a steady increase in the YouthBuild appropriation. DOL's 
YouthBuild program received $120M in FY'09; to reach 50,000 youth/year 
it will need $1B. It does cost about $20,000 per full year per student, 
but this includes wages for the housing they produce, and is still less 
than the other full-time options for out-of-school youth: less than the 
military, college, Job Corps, or prison. The return on investment is 
enormous. One recent study by Professor Mark Cohen documented that 
every dollar spent on a court-involved youth in YouthBuild provided a 
return on investment of at least $10.90. This is an investment worth 
making.
    Attached are testimonies from YouthBuild graduates that will give 
you the full picture.
    Thank you very much for your support over the years.
                                 ______
                                 

                           Youth Testimonies

                        From Violent to Activist

                             By Ely Flores

    As a child, I was abandoned by my father and I grew up in both 
south Hollywood and South Central L.A.--in a under resourced, oppressed 
community where more youth are sent to prisons rather then 
rehabilitation programs. Our mothers were so overwhelmed they could do 
little to prevent us young men from searching for meaning on streets 
that led straight to prison or death. Violence was my learned 
resolution for all the challenges I faced. Like many young people who 
grow up in poor, disenfranchised communities with few opportunities, I 
lived by the law of ``dog eat dog'' and ``survival of the fittest''.
    I raised my fists in violence over nothing. Maybe someone made fun 
of my shoes or clothes. Perhaps someone talked negatively about my 
mother, brother, or sister. Perhaps someone challenged my so called 
``man hood.'' A fight was always the conclusion. Where I'm from, being 
scarred and bruised was like wearing military stripes or medals won on 
a battlefield. Whenever the pain was too much to bear, a dose of 
Marijuana relieved me. The older gangsters found it fun to pit a kid 
against another kid by instigating little disagreements that devolved 
into a fight. Violence was normal. It was entertainment and to us kids, 
it seemed normal.
    Violence plus the lack of resources made it easy for me and other 
kids to pursue fantasy lives--to emulate gangster lifestyles and drug 
dealing. My brother and I slipped into that, too. I've been in 
situations where I was forced to fight individuals for ``claiming'' 
(stating) their membership to another gang that we did not get along 
with. My anger and violence led me to use weapons; to hurt people. I 
conditioned myself not to care whether or not my victim ended up in the 
hospital or dead. The same rules my homies and I lived by, also ruled 
the people I thought of as my enemy.
    One of the experiences that changed my life was when one of my 
homies was shot dead at the age of 14. He used to be a skate boarder. 
He always promised that he'd never join a gang. But one day peer 
pressure--and a lack of other options--got the best of him. He joined 
the local gang. A month later he was shot and killed next to my 
Grandmother's house. The cycle continued with years of retaliation.
    Life stories alike mine are common amongst poor and disenfranchised 
youth everywhere in the U.S. First we begin to hang out with gangs and 
eventually this road takes us to places like prison, drug addiction, 
and homelessness and for some death.
    As I began developing my consciousness about social issues, I asked 
myself, ``Why are there so many poor people in prisons and especially 
black and brown people? And why do they keep going back? Is it the 
people's fault, the community's fault, or the parents?'' Then I 
realized that I was trying to come up with answers from an oppressed 
and deficit perspective. Of course there has to be some accountability 
for the people but accountability also must lie with institutions that 
contribute to the issue and don't help solve this issue.
    South Central LA is already a poor community but continuously 
prisons and police continue the criminalization of many colored 
communities. I agree that there needs to be law enforcement and 
incarceration for the extreme but I also believe that there needs to be 
an equal amount of resources, programs, jobs and rehabilitation coming 
to the community as police, incarceration, and the building of more 
prisons.
    As my life turned into a gang life style, incarceration followed. 
For four years I was going in and out of prison. Some people say I was 
just a knuckle head but I say that the mission statements of jails that 
claim to rehabilitate people skipped me. I was never given any 
resources to better my life or those of my community. I had to go hunt 
and find resources out of my community because there weren't any in 
mine. I was hungry for a change but jail and probation officers never 
believed me. I found organizations like the Youth Justice Coalition and 
LA CAUSA YouthBuild that believe in the empowerment of young people to 
better their lives and their communities.
    LA CAUSA YouthBuild, an affiliate of YouthBuild USA, and a grantee 
of the US Department of Labor's YouthBuild program, introduced me to a 
life of positive transformation, self accountability, and leadership. 
They offered me resources with the only cost of bettering myself. I 
participated full-time and earned my GED, while I learned job skills by 
building affordable housing for homeless and low income people while 
they offered me personal counseling, positive role models, a safe 
environment, and leadership skills. I even earned an AmeriCorps 
education award. They offered me resources that jails and probation 
officers never did. They offered me a key to open a door to a new road. 
A road that would forever change my life.
    Because of that key they offered me, I became an activist. Because 
of that key, I have developed a passion for community work and helped 
numerous people in diverse and challenging communities. That 
opportunity that is rarely given to people was given to me and has 
enabled me to become an expert in the field of Youth Development, 
Leadership development, and Community Organizing and has allowed me to 
train others across this nation. That opportunity and handing of 
resources has given me congressional recognition by Hilda Solis and 
recognition from the city of Los Angeles. That recognition has even 
given me the opportunity to fly to Israel and devote my time to try and 
build peace amongst Israeli and Palestinian Youth. Imagine that; an ex 
gang member, drug addict and ex criminal that now offers his life and 
time to serve for the cause of peace and the people.
    I want you to imagine for a minute that me, Ely Flores of Los 
Angeles, CA, the person that stands in front of you today, was never 
given that key for transformation. What would have I become? A long 
term prisoner, a wanted felon or just another city and national 
statistic of incarcerated people of color. Your guess is as good as 
mine. But that key was given to me by a group of colored people that 
looked like me, that created an organization that offered me resources 
and empowerment in East Los Angeles and deterred my direction of 
destruction towards a direction of productivity. The resources to give 
me that key came from the federal government, thanks to decisions of 
legislators like you, who decided to fund the federal YouthBuild 
program. The problem is, that the 226 YouthBuild programs that have 
been created with federal funds and serve just 8,000 youth a year are 
turning away many thousands of young people like me every year for lack 
of funds, and 1,000 organizations have applied to the federal 
government for YouthBuild funding and most have been turned away for 
lack of funds. This is a sin and a tragedy, as I think of the young 
people coming behind me who will not have the opportunity I have had.
    I urge you all to offer keys of transformation to the thousands of 
youth and adults with a potential like mine. With the potential to 
become agents for change to their communities and the future of this 
nation. Think about my story and use it as proof that change is 
possible in communities dominated by the gang culture if you just 
provide and offer well-designed and well-managed resources and 
opportunities to communities in poverty. Equalize resources and 
opportunities to those of the rising prison systems. Be the producers 
of those keys that will open thousands of doors of hope, doors of 
transformation, and doors of change to people like me.
    I thank you for your time and always keep in mind that it is 
possible for a gang member to become a productive member of society and 
it is possible for a gang member to become an agent for positive 
change. Thank you.
                                 ______
                                 

                         Alischa Ann Singleton

                     Hope Center, Inc., Gretna, LA

    Hi, my name is Alischa Ann Singleton and I'm a 20-year-old proud 
participant of the YouthBuild program of Hope Center, Inc.
    My future was so promising. I was a senior in high school with some 
of the best opportunities awaiting me. Hurricane Katrina came and I 
lost sight of what was most important. Katrina totally destroyed my 
home and made me feel hopeless. After the storm things were really 
tough so I decided to take on a job to help out with my circumstances. 
The job I took on was during school hours and I really needed this job 
to help out with my siblings. So I decided to drop out of school. At 
that time I felt I was making the best choice for my family.
    Before enrolling in the program at Hope Center, my life was headed 
for destruction. I was working a dead end job that was paying me 
minimum wage. I felt like I could work my way up to the position I 
wanted at work but my spirit would not let me settle for just a job. 
Something inside of me said that I needed to go back to school, so that 
I could fulfill my dreams. I did not want to be the person who could 
have made it, but didn't. So I made up my mind that no one was going to 
stop me from achieving my goal.
    One day I was at home thinking about how I can make a change in my 
life and then I heard the Hope Center being broadcast on the radio. 
They were saying that they were giving young teens a second chance to 
finish their high school education. At that very moment something 
inside of me said that this was my second chance to make myself and my 
community proud.
    So because of Hope Center's YouthBuild Program I have completed my 
high school education. I'm becoming a positive leader in my community, 
and I'm on my way to college. This program has given me so much. Hope 
Center's YouthBuild has helped me realize that no matter what you've 
done in your past, that there's always a chance to better your future. 
Hope Center has made me a better person. My perspective about my 
community and life has matured. Through this program I can honestly say 
that I'm proud that I'm a part of it.
    Due to Hope Center's YouthBuild program I'm in a position where 
I've been offered a job upon graduation. I give thanks to everyone 
that's a part of the organization and for giving me the opportunity to 
give back to my community even though I'm not rich and famous.
                                 ______
                                 

                              Wayne Whack

YouthBuild Philadelphia Charter School, Philadelphia, PA, Class of 2006

    As I reflect back on my experience at YouthBuild Philadelphia 
Charter School, I am reminded of the process that I went through to 
become a student in the program. The high school I attended before 
gaining acceptance at YouthBuild was not meeting my needs. The support 
in the school was lacking, as was the sense that you were even cared 
about as a student. The caliber of the teachers was sub par; they would 
hand out crossword puzzles rather than give the students work to do 
during the period. To top it off, each class had about 38 to 40 
students, which was very distracting. Most of the teachers approached 
the students as if the students knew why they were there and were 
expected to teach themselves. There was also a lack of supplies for the 
students and this was a huge turn off. Due to these factors, I stopped 
attending class because I felt I needed more and deserved more.
    I learned of YouthBuild Philadelphia and began to pursue the 
acceptance process. Being a student at YouthBuild allowed me to have 
the level of comfort to let my guard down. Initially, I entered the 
school under the pretense that the school ``owed'' me something and 
that I was entitled to whatever services that were offered. It was not 
until becoming further acquainted with the school and the staff that I 
realized that the program was all about uplifting me as a person. I 
discovered how to become a learner at YouthBuild. I discovered that 
there were talents that existed inside of me that were not able to be 
brought to the surface elsewhere. I wanted to become a part of Youth 
Congress, editor of the yearbook, etc., because other schools simply 
did not have the opportunities for me to grow and expand. The biggest 
thing about YouthBuild, however, is the genuine love and dedication 
that the staff exudes. As a student you feel cared for, nurtured, 
valued and are pushed to become the best you can possibly be. The 
support that I received from the staff members enabled me to become a 
strong, capable, and efficient student.
    Since graduating in 2006, I have been able to give back to 
YouthBuild Philadelphia through an internship and by assisting various 
department programs within the school. This has allowed me to have a 
behind the scene glance as to how the school and personnel are solely 
dedicated to the mission at hand. Part of me wishes all of the students 
could have a behind-the-scene moment in order to witness all of the 
hard work and commitment that goes into each day to ensure that the 
students get the best education they can. I have witnessed that it is 
not just a ``job'' to the staff at YouthBuild, it is a calling. As a 
graduate, I made a promise to myself that I would keep in touch with 
the school. The school constantly speaks of YouthBuild as a family and 
it truly is. It is a very positive thing for me to stay in contact and 
I consider YouthBuild my family. I chose to participate in Youth 
Congress because I want to remain on the scene with the program. I talk 
with people on Facebook who are former students, and I am constantly 
looking to engage myself in YouthBuild activities. My sister and cousin 
are currently students here because I could not imagine not passing 
this experience on to others. I wanted to introduce my new family to my 
blood family so that their lives could forever be enriched and changed 
like mine.
    In closing, the future of YouthBuild is not only bright because of 
the personnel and the way in which the staff are seemingly handpicked 
to guarantee the right people are teaching and working in the program. 
But it is also bright because of the vision of a new-found movement 
entitled A Thousand Leaders. This movement is in place to bring forth a 
thousand leaders of YouthBuild students from all over the country to 
help enhance the vision and the drive of the mission. It will be my 
honor and duty to be a voice within the National Alumni Council and 
bring to the forefront all of those students that will speak for the 
cause. There are leadership qualities and capabilities in everyone and 
nothing will please me more as a YouthBuild alum than to encourage and 
support those students that can stand with me and lead for a stronger 
and better YouthBuild.
                                 ______
                                 

                            Wilfried Plalum

        Youthbuilding Alternatives, Portland, ME, Class of 1995

    YouthBuild has helped shape my life for the last thirteen years. 
The oldest of seven children, I came to the US not by choice but as 
part of the lost boys of Sudan. Both my parents were killed in the 
civil war in 1997. My parents were refugees when I was born, and when 
they were repatriated to Sudan, another war had begun. I was eleven. By 
the time I was seventeen years old I had lived in displacement camps 
inside Sudan, jailed by the government in Khartoum, escaped and lived 
in refugee camps in Uganda and Kenya, and after years in the camps I 
finally came to the US in 1994.
    While playing soccer, I met one of the YouthBuild staff who 
introduced a group of us to the program where I immediately enrolled 
and got my GED and got a certificate in construction. In my country of 
origin I was unable to complete my education and in total, only ten 
years of school were completed. After program completion I was awarded 
an AmeriCorps scholarship which encouraged me to apply to college and 
in 1997 was enrolled at the University of Maine, where I graduated in 
2002 with a BA in International Relations. Upon graduation, I returned 
to Portland, Maine, where I volunteered as a community leader in the 
Sudanese community and have been helping Sudanese file for green cards, 
teaching citizenship classes, being an adult education volunteer 
teacher, establishing youth soccer teams, helping write resumes, 
helping Sudanese women get their drivers permits, and most importantly 
helping them file for financial aid and college applications and 
college tours. In 2004 I volunteered for the Kerry Campaign where I did 
a voter registration drive and most importantly, I voted for the first 
time in my life!!
    After working as a Refugee and Immigrant Children's Case Manager 
for a year I decided to enroll in a Masters Intensive Program at 
Southern New Hampshire University School of Community Economic 
Development. Thanks to the Helene D. Stoneman scholarship and an IDA 
account, YouthBuild USA helped pay part of my first and second 
semesters at Southern New Hampshire University.
    After eighteen years, I returned to south Sudan to start a youth 
development project modeled after YouthBuild. It engages war-affected 
youth ex-combatants in reconciliation, conflict resolution, and 
reconstruction of the country through building and construction while, 
at the same time, getting basic education, job training, and leadership 
practice and entrepreneurship. Initially, the pilot project was for 
fifteen students but it has since been overwhelmed with more than it 
can absorb.
    While in south Sudan, I volunteered as a high school teacher 
teaching evening classes. As a research assistant I helped establish 
the office of South Sudan Human Rights Commission, and I helped prepare 
the budget and strategic plan for the Commission, among other things.
    In this past election, I helped in registering new voters from my 
community who voted for the first time. Currently, I keep in touch with 
the local YouthBuild program where the staff act as mentors to me in my 
daily life. What is stated above would not have been possible without 
YouthBuild, to whom I offer all the credit of my success and of many 
other youth in the program that continues to touch many in different 
shapes and forms. It is also one that can give hope to youth in post-
conflict Sudan and the world over that we can be productive and be part 
of ``change we believe in.''
                                 ______
                                 
    Chairman Miller. Would the YouthBuild students just stand 
up so the members of the committee might recognize you? Thank 
you for being with us today. Thank you. [Applause.]
    Thank you.
    Mr. Wilson?

   STATEMENT OF D. MARK WILSON, PRINCIPAL, APPLIED ECONOMIC 
                        STRATEGIES, LLC

    Mr. Wilson. Chairman Miller, Ranking Member Kline, and 
distinguished members of the committee, the current state of 
the labor market for young Americans is not very good. Since 
August--well, I should say, over the past 4 months young 
Americans have lost an average of 165,000 jobs per month, 
compared to a loss of 94,000 jobs a month from January through 
April.
    And the employment rate for young Americans is at an 
historical low level. About the only good thing you can say is 
that this group typically has a shorter duration of 
unemployment and that over time eventually things will get 
better.
    Although I understand the desire to include funding for a 
summer jobs program in the stimulus package, the hasty passage 
of the bill and its implementation resulted in duplicative 
standalone programs in many areas that, according to a recent 
GAO report, resulted in a number of unnecessary startup 
problems, and we may never know if the program was effective or 
not.
    For example, many states and local areas had difficulty 
determining and documenting the youth eligibility, particularly 
for older youth, and some local areas did not always verify 
participants' eligibility or collect the necessary 
documentation. In one state, GAO found that less than 42 
percent of the participants were placed in summer employment 
activities, and in one city none of the youth received any 
academic training through the summer program.
    Perhaps most troubling, the GAO also found that one city 
had significant internal control problems with paying youth and 
20 percent of the participants were either owed a paycheck or 
were not paid on time. Further, the GAO found that the 
methodologies used to measure the effectiveness of the program 
varied widely, calling into question the comparability and 
usefulness of the performance measures. Although many program 
officials believe that the summer program was successful, 
measuring actual outcomes has proven challenging and may 
actually reveal very little about the effectiveness of the 
program.
    Recent increases in the minimum wage have also reduced 
economic opportunities for young Americans. A decade after Card 
and Krueger's book, ``Myth and Measurement,'' the preponderance 
of economic research on the minimum wage supports the consensus 
view held prior to 1995 that a 10 percent increase in the 
minimum wage reduces the employment opportunities for young 
Americans by 1 to 3 percent. This research suggests that the 40 
percent increase in the minimum wage over the past 3 years has 
reduced the job opportunities for teenagers by 12 percent, or 
about 750,000 jobs.
    Young minimum wage workers usually earn low wages because 
they lack skills and experience. When they become less 
employable because the minimum wage rises, their loss goes well 
beyond the wages that they are not earning; they also lose the 
opportunity to gain skills that would allow them to move up the 
career ladder without the need for a job training program.
    The purpose of the Workforce Investment Act and the youth 
program is to provide low-income youth with the services that 
lead to successful employment and higher earnings. However, 
previous studies of job training programs raise serious 
questions about their effectiveness.
    Moreover, an evaluation of this summer's job training 
program is not expected to be completed until 2011, and a 
rigorous evaluation of the WIA youth programs is not expected 
to be completed until 2015. Before Congress expands these 
programs with large funding increases or enacts new youth 
programs, it should reauthorize WIA and address the issues that 
have arisen in that program since its enactment. Without 
knowing how effective the current youth programs are, Congress 
should proceed very carefully.
    Finally, in the long run the best way to ensure economic 
opportunities for young Americans is to improve the quality and 
rigor of K through 12 education. That will reduce the need for 
remedial education and job training programs in the future. 
Policymakers at all levels should be promoting the value, and 
dignity, and the importance of trade occupations.
    And finally, community colleges should be working very 
closely with all of the employers in their area. Reducing 
marginal income taxes, payroll taxes, and keeping them as low 
as possible will increase the economic growth and job 
opportunities for all Americans, both young and old.
    Thank you, and I will be happy to answer any questions you 
might have.
    [The statement of Mr. Wilson follows:]

  Prepared Statement of D. Mark Wilson, Principal of Applied Economic 
                            Strategies, LLC

    Chairman Miller, Ranking Member Kline, and distinguished members of 
the Committee: The current state of the labor market for young 
Americans is dismal. The labor force participation rate for 16 to 24 
year olds is at its lowest level since the Vietnam War and the 
employment rate is at an historic low of 47.2 percent. In August, the 
unemployment rate for this group stood at 18.2 percent, its highest 
level since 1983, and close to the record high of 19.0 percent set in 
1982. Over the past four months (May to August), young Americans have 
lost an average of 165,000 jobs per month, compared to a loss of 94,000 
jobs per month from January to April. About the only good thing you can 
say is that this group typically has a shorter duration of unemployment 
than older workers and over time these numbers will improve.
Serious Problems with the Stimulus Package
    Although the Workforce Investment Act (WIA) Youth Program requires 
state and local workforce investment boards to include a summer 
employment component in their year-round programs, after the stimulus 
package was enacted the Department of Labor issued guidance indicating 
that local areas could implement stand-alone summer youth employment 
activities with the $1.2 billion provided in the bill. According to a 
recent Government Accountability Office report this unnecessary and 
costly duplication led to a number of start-up problems. For example, 
many states and local areas that no longer offered a stand-alone summer 
program had difficulty determining and documenting youth eligibility, 
particularly for older youth, and some local areas did not always 
verify participants' eligibility or collect the necessary 
documentation. Moreover, in one state the GAO found that less than 42 
percent of participants were placed in summer employment activities, 
and in one city none of the youth received academic training through 
the summer youth employment programs funded by the Recovery Act.
    Perhaps most troubling, the GAO also found that one city had 
significant internal control problems with paying youth and 20 percent 
of the participants in its summer youth program were owed a paycheck or 
were not paid on time. The GAO also found problems with employers when 
participants reported to work for the first time. Some participants 
were left stranded because their prospective employers had pulled out 
of the program, others employers had asked for more workers than they 
needed and sent participants back to the workforce board.
    Finally, the stimulus package only required that a work readiness 
measure be used to assess the effects of the summer-only youth 
employment activities, and under DOL's guidelines, states and local 
areas were permitted to determine their own methodology to make this 
assessment. The GAO found that the methodologies used to measure work 
readiness varied widely, calling into question the comparability and 
the usefulness of the performance measure when rolled up to the 
national level. While many program officials, employers, and 
participants GAO spoke with believe the summer youth activities were 
successful, measuring actual outcomes has proven challenging and may 
reveal little about what the summer activities actually achieved.
Increasing The Minimum Wage Reduced Economic Opportunities for Young 
        Americans
    A decade after Card and Krueger's book, Myth and Measurement: The 
New Economics of the Minimum Wage, the preponderance of economic 
research on the minimum wage supports the consensus view held prior to 
1995 that a 10 percent minimum wage increase reduces the employment of 
teenagers and other low-skilled workers by 1 to 3 percent. This 
research suggests that the 40.8 percent increase in the minimum wage 
over the past three years, from $5.15 to $7.25 per hour, has reduced 
the job opportunities for teenagers by 12.2 percent, or 746,000 jobs; 
with the last increase in July 2009 leading to further reductions in 
the hiring rate for teenagers this past summer.
    Young minimum wage workers usually earn low wages because they lack 
skills and experience. When the minimum wage forces employers to pay 
higher wages, they are more likely to substitute higher-skilled and 
productive workers for lower-skill workers, particularly when labor 
markets are very weak.
    When young Americans become less employable because the minimum 
wage rises, their loss goes beyond the wages they are not earning. They 
also lose the opportunity to gain the skills that would allow them to 
move up the career ladder. Minimum-wage jobs are often entry-level 
positions that teach inexperienced workers the skills that make them 
more productive employees and enable them to earn more, without the 
need for job training programs. Skills like how to interact with 
coworkers and customers have to be learned on the job, and minimum-wage 
jobs provide young workers the opportunity to learn these skills.
    If Congress is really interested in ensuring economic opportunities 
for young Americans, it will refrain from raising the minimum wage for 
quite some time.
Federally Funded Job Training Programs Are Expensive
    Increasing job training programs can be a costly way to train young 
adults. For example, this past summer's job training program cost an 
average of $4,000 per participant compared to an average of $2,400 for 
one year of community college classes. On average, the WIA youth 
programs cost an average of $3,700 compared to an average of $6,200 for 
one year at a public university. And the most intensive youth program, 
Job Corps, costs more than some four-year private schools.
Reauthorize and Fix WIA Before Expanding Job Training Programs
    The purpose of the WIA youth program is to provide eligible low-
income youth with services that lead to successful employment and 
higher earnings. However, previous studies of job training programs 
raise serious questions about their effectiveness. For example, a 2003 
evaluation of the Quantum Opportunity Program found it did not increase 
the likelihood of graduating from high school, going on to college, 
entering an apprenticeship, or going into the military. Nor did the 
program increase employment and earnings outcomes. And the Summer 
Training and Education Program had no lasting effects on the 
educational attainment, employment, or welfare participation of 
participants 2 to 3 years after the program.
    Moreover, an evaluation of this summer jobs program is not expected 
to be completed until 2011, and a rigorous evaluation of the WIA youth 
program is not expected to be completed until 2015. Before Congress 
further expands these programs with large funding increases or enacts 
new programs, it should reauthorize WIA and address the issues that 
have arisen since its enactment. Without knowing how effective the 
current WIA youth programs are Congress should proceed very cautiously.
The Long-Term Solution
    In the long-run, the best way to ensure economic opportunities for 
young Americans is to improve the quality and rigor of K-12 education, 
which will reduce the need for remedial education and job training 
programs in the future and provide a better basic skill-set for the 
future workforce. Policymakers at all levels should be promoting the 
value, dignity, and importance of the trade occupations; and our 
current job training system should encourage community colleges to work 
very closely with all employers in their area. Finally, reducing 
marginal income tax rates and payroll tax rates and keeping them as low 
as possible at both the corporate and individual levels will increase 
economic growth and create more private sector jobs for all Americans 
both young and old.
    Mister Chairman, this concludes my prepared remarks. I will be 
happy to answer any questions that you or the Members of the Committee 
may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Austin?

STATEMENT OF ALGERNON AUSTIN, DIRECTOR OF THE RACE, ETHNICITY, 
         AND ECONOMY PROGRAM, ECONOMIC POLICY INSTITUTE

    Mr. Austin. Good morning Chairman Miller, Ranking Member 
Kline, and members of the committee. I am honored to speak with 
you today about ensuring economic opportunities for young 
Americans.
    Today, young Americans face a particularly difficult labor 
market, but the difficulties are not simply due to this 
recession. Even during the low unemployment year of 2000 the 
job market for youth was significantly worse than for older 
workers. While the youth employment picture is bad generally, 
it must be noted that it is even worse for Hispanic American 
and African American youth.
    High unemployment rates for young workers have both short-
and long-term negative effects. Current research suggests that 
the labor market consequences of graduating from college in a 
bad economy are large, negative, and persistent. Thus, when 
thinking about ensuring opportunities for young Americans, we 
need to think about what can be done to help them recover from 
the negative effects of this recession even a decade or 2 into 
the future.
    What can be done to increase the economic success of 
America's youth? I have four fairly simple recommendations: 
number one, provide broad labor market education to high school 
students; number two, link job training to jobs; number three, 
increase the educational attainment of America's youth, 
particularly Hispanic and Black youth; number four, provide 
adequate financial aid for older college students.
    Number one, provide broad labor market education to high 
school students: More than a decade ago Ray Marshall, the 
former secretary of labor in the Carter administration, stated 
that ``we have no systematic processes to assist high school 
graduates to move smoothly from school into employment.'' 
Unfortunately, this statement is still largely true today.
    About 60 percent of today's youth, the majority of young 
Americans, will not obtain a college degree. Who educates these 
youth about their job options and the world of work?
    Students tend to learn about jobs from friends and family. 
This means there is tremendous variation in the quantity and 
quality of information that students receive. Typically, 
students from more advantaged backgrounds receive better 
information. In order to begin to level the playing field, 
education about the labor market should be part of the formal 
high school curriculum.
    Number two, link job training to jobs: The common criticism 
of job training programs is that they often provide training 
for nonexistent jobs. The Registered Apprenticeship program 
provides on-the-job training, and thus is the ideal jobs 
training program.
    The Registered Apprenticeship program should be expanded 
into nontraditional areas outside of manufacturing and 
construction. Other jobs training programs should also be 
designed for jobs that actually exist.
    Number three, increase the educational attainment of 
America's youth, particularly Hispanic and Black youth: Current 
research suggests that the choice of a college can decrease or 
increase the likelihood that a particular student obtains the 
college diploma. A study of Chicago public school graduates 
found that the average student's likelihood of graduating 
varied dramatically depending on the college attended.
    The six most popular in-state colleges graduated Chicago 
public school students at a rate of 26 percent. Less popular 
in-state colleges, however, had a Chicago public school 
graduation rate of 46 percent--20 percentage points higher.
    High school students should be educated about the 
importance of considering the college graduation rate in 
choosing a college. It is a small step that has the potential 
to have a big effect on college graduation rates.
    Number four, provide adequate financial aid for older 
college students: The recession will have lasting negative 
economic effects on young workers. The economic success of 
young workers will be affected by the amount of opportunities 
they have to acquire additional education and training over 
their lifetime.
    In 2007, 20 percent of students pursuing and undergraduate 
degree were over 29 years old. Over time we are seeing fewer 
and fewer college students who fit the traditional stereotype. 
We have to adapt the financial aid resources that we provide 
for college students to match this increasingly age-diverse 
population.
    Thank you. I am happy to answer any questions.
    [The statement of Mr. Austin follows:]

   Prepared Statement of Algernon Austin, Director, Program on Race, 
          Ethnicity and the Economy, Economic Policy Institute

    Good morning, Chairman Miller, Ranking Member Kline, and members of 
the committee. I am honored to speak with you today about ``Ensuring 
Economic Opportunities for Young Americans.''
    The current recession is taking a toll on all Americans, but young 
Americans face a particularly difficult labor market. In August of this 
year, the unemployment rate for young workers under 25 years old was 
significantly higher than for older workers. The unemployment rate for 
workers 25-to-54 years old was 8.7%. For 20-to-24 year olds, the August 
unemployment rate was 15.1%. For 16-to-19 year olds, it was 25.5%. (See 
Figure 1.) Even youth who have recently completed college are facing 
historically high unemployment rates.\1\
    These greater difficulties for young workers are not simply due to 
this recession. Even during the low-unemployment year of 2000, the job 
market for youth was significantly worse than for older workers. In 
August of 2000, workers 20-to-24 years old were more than twice as 
likely to be unemployed as workers 25-to-54 years old. Workers in their 
teens were more than three times as likely as 25-to-54 year olds to be 
unemployed. (See Figure 1.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    High unemployment rates for young workers have both short- and 
long-term negative consequences. When many young people who would like 
to work cannot find work for an extended period of time, there is the 
risk that some of them will give up on the formal labor market 
completely and become discouraged workers. For males, higher youth 
unemployment rates are strongly associated with higher crime rates.\2\ 
In the long-term, work experience acquired as a youth is correlated 
with better social and economic outcomes in later years.\3\
    Recessions bring specific harm to young workers. Current research 
suggests that ``the labor market consequences of graduating from 
college in a bad economy are large, negative and persistent.'' \4\ 
College graduates who enter the labor force in a bad economy see lower 
starting wages relative to wages in more fortunate times. Wages for 
these young workers in a recession are 6% to 8% lower for each 
additional percentage point increase in the national unemployment rate. 
This negative wage effect does decrease with each passing year, but 
even 15 years after college graduation, wages are lower for those who 
graduated during times of higher unemployment.\5\ Thus, when thinking 
about ``Ensuring Opportunities for Young Americans,'' we need to think 
about what can be done to help them recover from the negative effects 
of this recession a decade or two into the future when they are middle-
aged Americans.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While the youth employment picture is bad generally, it is even 
worse for Hispanic-American and African-American youth. For example, 
the black youth unemployment rate for 16-to-19 year olds and for 20-to-
24 year olds are both more than ten percentage points higher than the 
comparable white rate. (See Figure 2.) All of the negative effects that 
accompany high youth unemployment can therefore be assumed to be more 
strongly felt among Hispanic and African-American youth.
What Can be Done to Increase the Economic Success of America's Youth?
    Although the current recession has been a particularly deep and 
long one, eventually it will end. As mentioned previously, the problem 
of high youth unemployment is not specific to our current situation. In 
the area of education and job training, there are specific policies 
that will improve youth economic outcomes in non-recessionary labor 
market situations. Also, we should be thinking about what can be done 
to improve the economic circumstances of young workers who have been 
set back by this recession in the years to come.
            Provide Broad Labor Market Education to High School 
                    Students
    More than a decade ago, Ray Marshall, the former secretary of labor 
in the Carter administration, stated that ``we have no systematic 
processes to assist high school graduates to move smoothly from school 
into employment.'' \6\ Unfortunately, this statement is still largely 
true today.
    In fact, the situation may be worse today because of changes in the 
American labor market. As one analyst argues, ``The need for career 
coaching and planning support * * * is undeniable. Gone are the days 
when workers were hired by big, vertically integrated companies and 
then climbed identifiable company career ladders. Today's labor market 
is far more dynamic.''<plus-minus>\7\ This dynamism makes the labor 
market more difficult for all workers to understand and navigate. But 
one can imagine that making wise career decisions are especially 
difficult for students still in high school.
    While we should work to increase the educational attainment of all 
Americans and particularly of Hispanic and black youth (more on this 
topic below), it is also important to realize that not every student 
obtains a college degree. Who educates these students about their job 
options?
    Students tend to learn about jobs from friends and family. This 
means that there is tremendous variation in the quantity and quality of 
information that students receive. Typically, students from more 
advantaged backgrounds receive better information.\8\ In order to begin 
to leveling the playing field, education about the labor market should 
be part of the formal high school curriculum.
    We need to formalize the process by which high school students 
learn about things such as which high-paying jobs do not require a 
college degree, how to prepare a resume or job application, job 
interviewing skills, as well as other information about the labor 
market.
    Knowing how to acquire a job is important. Knowing how to keep one 
is also important. Employers are currently stressing ``soft skills'' as 
job requirements.\9\ Do high school students know what ``soft skills'' 
are and how to demonstrate that they have them? This information should 
be part of every state's high school curriculum.
    Labor market education should begin with a broad overview of 
different types of jobs, their typical pay, and their typical 
requirements. This knowledge should help students select a career path 
rather than stumble upon one. Ideally, labor market education should 
open up students to consider jobs and career paths beyond those of 
their family and friends.
    Given the dynamism of the labor market due to technological 
advances and global competition, it is important for students to 
integrate the idea of a dynamic labor market into their thinking. 
Students should be educated about which occupations are expected to 
experience strong job growth as well as their expected salaries, so 
that they are more equipped to set their sights on the economy of 
tomorrow and not the economy of yesterday.
    Broad labor market education would help provide the many students 
who do not obtain a college degree with some guidance in starting and 
succeeding in their careers. It should also level the playing field a 
bit, by ensuring that the most advantaged students do not have 
exclusive access to the most desirable jobs.
            Link Job Training to Jobs
    A common criticism of job training programs is that they often 
provide training for non-existent jobs. The Registered Apprenticeship 
program provides on-the-job training and thus is the ideal jobs 
training program. The program has an impressive track record. As one 
assessment states:
    Registered Apprenticeship trains more workers for high-skilled, 
high-wage careers than any other public workforce investment program in 
the nation, at a fraction of the cost. Sponsors express great 
satisfaction with their programs, with an employer satisfaction rate of 
87 percent * * * * There is also high satisfaction among apprentices 
particularly with wages. The Upjohn Institute conducted a net impact 
and cost-benefit analysis of the Washington State workforce system in 
2006 and found that earnings increases associated with apprenticeship 
training were substantially higher three to four years after leaving 
the program than other post-secondary educational programs (community 
colleges, private career schools and career and technical 
education).\10\
    Registered Apprenticeships provide excellent training for real jobs 
in a cost-efficient manner.
    The Registered Apprenticeship program should be expanded into non-
traditional areas outside of manufacturing and construction. Currently, 
the majority of apprentices are working in traditionally male, blue-
collar occupations.\11\ More occupations in growing fields should be 
incorporated into the program.
    Other jobs programs should also be designed for jobs that actually 
exist. Pre-apprenticeship programs are good when they can funnel 
students directly into Registered Apprenticeship programs. Green jobs 
training programs should also ideally be linked to actual green jobs. 
At the very least, job training programs should be designed with the 
current and future needs of the local labor market in mind.
            Increase the Educational Attainment of America's Youth, 
                    Particularly Hispanic and Black Youth
    Higher educational attainment is associated with lower unemployment 
rates and higher income. The educational attainment of Hispanic-
American and African-American youth, in particular, should be 
significantly higher than it is. In 2008, 37.1% of whites 25-to-29 
years old had obtained a bachelor's degree or higher. The corresponding 
rate for Hispanics was 12.4% and for blacks 20.4%.\12\ We could improve 
the economic outcomes for Hispanic and black youth by improving their 
educational attainment.
    Current research suggests that the choice of a college can decrease 
or increase the likelihood that a particular student completes college. 
A study of Chicago Public School graduates found that the average 
student's likelihood of graduating varied dramatically depending on the 
college attended. Unfortunately, the six most popular in-state colleges 
graduated Chicago Public School students at a rate of 26%. This rate is 
adjusted for student socioeconomic status, demographic characteristics 
and academic achievement. Less popular in-state colleges, however, had 
a Chicago Public School graduation rate of 46%, 20 percentage points 
higher. An average student from a Chicago Public School could, 
therefore, significantly increase their likelihood of college 
completion by choosing one of the less popular schools.\13\
    Too many students begin college but never obtain a college degree. 
This problem seems to be exacerbated among lower-income students who 
``even when they are better qualified--often go to colleges that excel 
in producing dropouts.'' \14\
    High school students should be educated about the importance of 
considering the college graduation rate in choosing a college. Detailed 
college graduation rate data by race and ethnicity is now widely 
accessible through the Education Trust's College Results Online data 
tool.\15\ This information needs to be incorporated into high school 
student college decision-making. It is a small step that has the 
potential to have a big effect on college graduation rates.
            Provide Adequate Financial Aid for Older College Students
    The recession will have lasting negative economic effects on young 
workers, and young workers today find themselves in a far more dynamic 
and globally competitive labor market than previous generations. The 
economic success of young workers will be affected by the amount of 
opportunities they have to acquire additional education and training 
over their lifespan.
    Just because an individual did not obtain a college degree in his 
twenties doesn't mean that he cannot obtain a college degree later in 
life. Many Americans are well aware of this fact. In 2007, 20% of 
students pursuing an undergraduate college degree were over 29 years 
old.\16\ Over time we are seeing fewer and fewer college students who 
fit the traditional stereotype of a late-teens-to-early-twenties 
individual, attending a residential college full-time.
    Because we want American workers to have the opportunity to change 
careers and increase their earnings over time, it is encouraging that 
individuals 30 years and older are pursuing undergraduate degrees. 
However, we have to adapt the resources that we provide for college 
students to match this increasingly age-diverse population.
    The student financial aid system is still designed with the 
``traditional'' college student in mind. We have to design financial 
aid packages for students who are not attending college full-time. 
These students are increasingly working full-time and supporting a 
family. We also have to consider ``micro-lending'' aid models for 
students who need a few technical courses but not a college degree.\17\
    We will make higher education more accessible and increase the 
human capital of American workers to the extent that we acknowledge and 
support the increasingly common ``non-traditional'' college student.
Conclusion
    The economic fates of young workers are ultimately tied to the 
strength of the American economy. Beyond overall economic conditions, 
much can be done to improve the educational and training outcomes of 
young workers and thereby improve their likelihood of economic success.
    We have to begin with high school curricula. Students need better 
information and guidance about finding good jobs that do not require a 
college degree and they also need better advice concerning college 
selection. Our jobs training programs need to be connected to the 
current and future labor market and ideally connected to real jobs. If 
we can expand the Registered Apprenticeship program into new and 
growing fields we will provide an avenue for upward mobility for many 
young workers. Young workers will be set back by this recession. Many 
of them, in years to come, will return to school to acquire new skills 
and credentials. The financial aid system should be modernized to 
provide them with the assistance they need to advance their careers.
                                endnotes
    \1\ Kathryn Edwards, ``Commencing Unemployment,'' Economic 
Snapshot, June 10, 2009. Washington D.C.: Economic Policy Institute.
    \2\ See for example, Ming-Jen Lin, ``Does Unemployment Increase 
Crime? Evidence from U.S. Data 1974-2000,'' Journal of Human Resources 
XLIII, no. 2, 2008: 413-436.
    \3\ Andrew Sum, Ishwar Khatiwada, Joseph McLaughlin, and Sheila 
Palma, ``The Collapse of the National Teen Job Market and the Case for 
An Immediate Summer and Year Round Youth Jobs Creation Program,'' 
(Prepared for the U.S. House of Representatives, Subcommittee on Labor, 
Health, Human Services and Education), Center for Labor Market Studies, 
Northeastern University, March 2008.
    \4\ Lisa Kahn, ``The Long-Term Labor Market Consequences of 
Graduating from College in a Bad Economy,'' Working Paper, electronic 
version, Yale School ofManagement, June12, 2009. <http://mba.yale.edu/
faculty/pdf/kahn--longtermlabor.pdf>.
    \5\ Ibid.
    \6\ Quoted in William Julius Wilson, When Work Disappears: The 
World of the New Urban Poor (New York: Alfred A. Knopf, 1996), 216.
    \7\ Louis Soares, Working Learners: Educating Our Entire Workforce 
for Success in the 21st Century (Washington D.C.: Center for American 
Progress, 2009), 17.
    \8\ James Rosenbaum, Beyond College for All: Career Paths for the 
Forgotten Half (New York: Russell Sage Foundation, 2001), 40.
    \9\ Ibid.
    \10\ Advisory Committee on Apprenticeship, The Future of the 
National Registered Apprenticeship System: A Workforce Strategy for 
Main Street America (Washington D.C: U.S. Department of Labor, 2008), 
ii.
    \11\ Ibid., iii.
    \12\ Digest of Education Statistics, ``Table 8. Percentage of 
persons age 25 and over and 25 to 29, by race/ethnicity, years of 
school completed, and sex: Selected years, 1910 through 2008'' 
(Washington D.C.: National Center for Education Statistics, 2008).
    \13\ Melissa Roderick, Jenny Nagaoka, and Elaine Allensworth, From 
High School to the Future: A First look at Chicago Public School 
Graduates' College Enrollment, College Preparation, and Graduation from 
Four-Year Colleges (Chicago, IL: Consortium on Chicago School Research, 
2006), 72-82.
    \14\ David Leonhardt, ``Colleges Are Failing in Graduation Rates,'' 
New York Times, September 9, 2009.
    \15\ The Education Trust, College Results Online, http://
www.collegeresults.org/.
    \16\ Digest of Education Statistics, ``Table 191. Total fall 
enrollment in degree-granting institutions, by level of enrollment, 
sex, age, and attendance status of student: 2007'' (Washington D.C.: 
National Center for Education Statistics, 2008).
    \17\ For more on this issue, see Soares, Working Learners.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    And thank you to each of you.
    Secretary Oates, you talked about doing an after-action 
review and looking--anticipating looking forward to the next 
tranche. Can you tell us what that is going to be, how you see 
that happening?
    Ms. Oates. Certainly. You know, and Chairman Miller, one of 
the things I want to point out is that, you know, under 
Secretary Solis we always know we can do more and do better, so 
we are never going to be satisfied. But some of the things we 
are looking at are some of the things that some of the panel 
members brought up today.
    You know, there were problems with eligibility 
verification. Some of the young people, particularly ARRA 
allowed us to extend the age to 24. Some of those people had 
disconnected with their parents, so to get tax verification 
that they were low-income became very difficult and often a 
hurdle that local areas couldn't surmount. So we would like to 
come to you and talk about other ways that we could verify that 
these young people were low-income without always tying it to 
their parents' previous year taxes.
    On the other hand, you know, I think when--I think I would 
ask our critics to keep criticizing because that is how we 
learn, but at least to be fair about this. You know, if I 
employed a 16-year-old in the local area this year, it is going 
to take me at least 2 years to figure out whether that young 
person finished high school, and it is going to take me at 
least 4 years to see if that young person went directly on from 
high school to finish an Associate's Degree.
    So some of the measures of the effects of these summer 
youth experiences are going to be current and real time, and 
some are going to be longer time. And while we could look at 
wage and hour data to see if these young people earned more in 
their part-time jobs, I think we want to be very careful about 
encouraging local areas to do that. I think for too long work 
has competed with academics and school, and we need to partner 
with our Department of Education friends to make sure that work 
and education aren't competing, that they are aligned.
    So we will--we are talking with the mayors and the local 
participants right now about other things about the management 
of it. If given the other--if given an opportunity next year, 
we would also work with employers. We would work with them on a 
national scale as well as on local scales to talk about how 
these summer experiences were key and how, in many instances, 
they did this summer anecdotally and they will in the future 
lead into full employment for those older youth.
    Chairman Miller. Thank you.
    On another issue, as you point out in your testimony--I 
think it is Dr. Stoneman--Mr. Segal--you have a significant 
number of youth engaged in these programs that have not really 
thought about their going on to higher education, or maybe even 
getting their GED or returning to and getting their diploma. 
How do you interface that in this--you know, we have made some 
very substantial changes in the loan programs with respect to 
choices of careers and occupations, and loan forgiveness, and 
income determinant repayment programs, where all of a sudden 
people who would ask, ``Why would I borrow to go into this 
profession because it has such a low starting point,'' may be 
good over the long term of the career.
    Now they can see their way clear that they are not going to 
have to pay more than 15 percent of their income in loan at any 
given time, and 25 years that loan goes away, if they are in 
public service it goes away, or nonprofit it goes away after 10 
years.
    You are talking about a universe of people that assume that 
their income status just ruled out their ability to go to 
school, or the long time since they have been in school. I just 
wondered, how do we successfully incorporate this information? 
And Mr. Segal, I want--you work with many of these people
    Mr. Segal. Sure. Well, first off, we do support a lot of 
existing bills and legislation in Congress. For instance, there 
is a provision that passed under the Higher Education 
Opportunity Act called the John R. Justice proposal that would 
give loan reimbursement to law school graduates who, say from 
even greater amount of debt than undergraduates. I think two-
thirds of undergraduates have over $20,000 in debt. Well, the 
average law school debt exceeds $70,000.
    So a way to make that debt a little bit more manageable is 
to help incentivize public service, such as being a public 
prosecutor or a public defender, and then paying back the 
money. It also did that for the--I think you are trying to do 
that through H.R. 3200 with the Health Conservation Corps 
program in terms of paying for medical school as well. So 
service in order to pay for education is something that our 
coalition definitely backs.
    Chairman Miller. Ms. Stoneman--Dr. Stoneman?
    Ms. Stoneman. Thank you. We have made an effort in the 
YouthBuild network to link the YouthBuild experience building 
housing to the AmeriCorps system so that low-income young 
people leave with an education award. It makes a huge 
difference.
    The loan system has been onerous, and if you are poor and 
you are burdened with these loans it has been very, very 
difficult. So the Pell Grant and what you have done to make 
it----
    Chairman Miller. So I think that you could argue--and I 
don't want to pretend that this is simple--but in a state like 
California, depending on sort of year to year what they do with 
the Cal Grants program, a low-income individual can really see 
the way to cobble together between grants and some loans, not a 
lot of loans, to go to a public--to the public system all the 
way through the University of California.
    Ms. Stoneman. And the community colleges also are----
    Chairman Miller. But the awareness of an individual that 
that is possible is a different issue----
    Ms. Stoneman. Right.
    Chairman Miller [continuing]. And, you know, I represent a 
community 20 minutes down the road from University of 
California Berkeley. I can go into the schools and many of 
those students have--don't know that Berkeley exists.
    Ms. Stoneman. Right.
    Chairman Miller. And they don't know that they have--that 
they can cobble together--I just think as we have their 
attention with the employment programs--you do, obviously, 
because you are taking them back and forth into the academic 
setting, but even in the summer programs, they ought to leave 
with a complete understanding of what their options might be, 
whether they want to go to Contra Costa Community College or do 
they want to go to San Jose State, if that is possible, to see 
that. I just think we have to weave that into the very fabric 
of this program.
    We do it with a lot of year-round programs that we run and 
various nonprofits run, but our word on the episodic one that 
it is not part of that. But I made my point.
    Ms. Stoneman. You are absolutely right.
    Chairman Miller. Thank you.
    Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman.
    My thanks to the panel for being with us today, for your 
testimony, and now for discussing with us these issues. Let me 
start with Secretary Oates.
    Mr. Wilson mentioned the Workforce Investment Act, I did, 
you did express the administration's support for it. Can you 
give us some idea what the administration's timeline is for 
this? Are you asking for reauthorization of this? Are you 
proposing language for it? How are you addressing the 
reauthorization of WIA?
    Ms. Oates. Mr. Kline, we don't know each other yet, but you 
will know I have great respect for Congress, so I think that 
the United States Department of Labor stands ready when you 
tell us what the timeline is to give you whatever technical 
assistance you need. Having spent 10 years on the Senate side, 
I always hate it when somebody else told us when to do a bill.
    So we are waiting for you to tell us, and ready and willing 
to give you technical assistance. We definitely have some 
ideas.
    The administration has sent some clear ideas about 
simplifying eligibility, about making sure--mandating that I 
work much more closely with my colleagues at the Department of 
Education. So in broad strokes I think the administration has 
sent clear signals, but the clearest one I would like to give 
you today is, we are ready to work with you whenever you are 
ready.
    Mr. Kline. But you don't feel any sense of urgency? I mean, 
it is clear that the administration has not been afraid to 
express urgency for the Congress to do on a number of issues, 
some of which we are wrestling with right now. And I am just 
trying to get a sense from you about the administration's sense 
of urgency on reauthorizing WIA, and you are saying you don't 
have any.
    Ms. Oates. Well, I think the administration's first 
priority is health care, and we think that is directly related 
because for us a good job for anyone means getting health care, 
and I think as long as--the administration has been clear that 
it is able to multitask and you have been clear that you are 
able to multitask, so I can just repeat for you, we are ready 
whenever you need us to work as a full partner on the 
reauthorization of the Workforce Investment Act.
    Mr. Kline. Okay. Thank you.
    Mr. Wilson, we have heard today and seen reports of the 
successes of the stimulus package through the summer program. 
We are trying to get the youth engaged in employment, and I 
will ask you and then maybe Secretary Oates has a comment as 
well about--these job savings, this job creation, how much of 
that--do you know or does the secretary know--how much of that 
went to public sector government jobs and how many of it went 
to the private sector?
    Mr. Wilson. Secretary Oates may actually have some specific 
numbers on that, but the results that I have seen so far 
strongly suggest that the majority of the jobs that were saved 
and/or created--and I have some question about how saving jobs 
is measured--are primarily public sector positions--safety and 
health positions, education positions. Many of the summer job 
training program positions involve placing young adults in 
positions in the public sector or in public nonprofits.
    So I would say that I don't think there is any actual--
there may not be any actual specific data about this past 
summer's job training program, but typically in the past the 
majority of the positions has involved placing students, or 
placing young adults in public sector positions.
    Mr. Kline. Secretary Oates, do you know or do you have any 
sense yet?
    Ms. Oates. We will be able to give you more information 
after the October 10th reporting deadline, but anecdotally I 
would tell you that I agree, that a lot of the jobs were in 
public sector. People worked in community colleges; people 
worked in municipal government and did internships.
    But there were a significant number of interesting jobs 
that came up this summer in emerging industries. Lots of new 
career lines were built in terms of health care; lots of young 
kids got exposed to jobs in health care that they didn't know.
    Some local areas did surveys, you know, ``What are the jobs 
in health care?'' and kids responded, ``Nurses and doctors.'' 
But after their summer experience they were given access to 
knowledge about all the careers that are the tech jobs in 
hospitals as well as the back office jobs in hospitals in 
things like accounting and customer service that they had 
never, you know, aligned with working in a hospital.
    But I will not be surprised, honestly, if we still see a 
lot of emphasis on just what Mr. Wilson said--lots of people 
going into nonprofits and going into local things, like I said, 
community colleges, only because I think there was not the time 
to build those relationships in a better way with the private 
sector because of the timeline, as you brought up, and also 
because some of those jobs really were being downsized so much 
that opportunities for mentoring and oversight of young people 
in summer work experiences weren't available. Hopefully it will 
get better in the future.
    Mr. Kline. Okay.
    Thank you, Mr. Chairman. I yield back.
    Chairman Miller. Thank you.
    I would just take 1 minute--one of the reasons that the 
reauthorization of WIA has been held up is because of me, 
because I have not--and Mr. McKeon raised this numerous times 
when he was chair of the committee--I am not satisfied that we 
have a system that integrates all of the partners necessary in 
a community, you know, in terms of the business community and 
others. And I am encouraged by the passage of the community 
college money that directs that these partners be created. Many 
states have P-16 councils and the rest of that.
    But in terms of trying to develop a relatively smooth and 
evolving system as the economy has changed the local 
communities, in many areas it sort of fits and starts, and in 
many areas it is just not as much outreach. And we have been 
working with members on both sides of the aisle to try to see 
how we can do this so we don't just reauthorize the past but we 
really think about what are the economic factors that come to 
bear in a local community when either an old industry leaves or 
shuts down or new opportunity presents itself?
    I am kind of surprised from time to time when I go to these 
organizations and everybody says they all work really well 
together but they are all introducing themselves to one 
another. I think there is something wrong around this table.
    Mr. Kline. Would the gentleman yield for--I don't want this 
whole hearing to be you and me debating the Workforce 
Investment Act, but we would argue that this is a place where 
you have the best opportunity for integration----
    Chairman Miller. I agree.
    Mr. Kline [continuing]. Where you have relationships built, 
where community colleges are already engaged and career 
colleges can be engaged and should be engaged, and employers. 
And so we are looking forward to working with you, Mr. 
Chairman, and with the administration----
    Chairman Miller [continuing]. I am just a bit of a skeptic 
here, as I have traveled and visited in different localities--
--
    Mr. Kline. But we are starting new programs.
    Chairman Miller. I just----
    Mr. Kline. Okay. I won't debate this for the whole hearing. 
I yield back.
    Ms. Fudge. Thank you, Mr. Chairman.
    And thank you to each of you on the panel. I have two 
questions, the first one being that--first, I am from Cuyahoga 
County, Ohio, which is the Cleveland area, and we received 
approximately $14 million for workforce training from the 
Recovery Act.
    Approximately $6 million of that went to summer youth 
programs. We hired more than, or approximately, 5,000 young 
people. Would you not say that that was fairly successful?
    Mr. Wilson, and then any other person on the panel.
    Mr. Wilson. Well, it depends on the quality of the 
positions that they received and what--in terms of being 
successful, there is a number of different ways you can measure 
outcomes for----
    Ms. Fudge. But the goal was to get young people jobs.
    Mr. Wilson. The goal is to get them jobs, but then how long 
does that effect last? Do they carry that effect forward? Does 
participating in that position improve their long-term 
education and earning potential----
    Ms. Fudge. Let me just say this to you----
    Mr. Wilson [continuing]. Or is it just a very short-term 4-
or 6-week summer job program that puts extra money in their 
pocket?
    Ms. Fudge. Let me say this: I had a summer job. Many of 
them. Each one was significant to me, whether it was for 1 week 
or 2 months, they were all significant to me as a young person 
growing up in a single-family home in a minority neighborhood.
    My second question is, this fall I am going to be hosting a 
financial literacy and leadership program for high school 
seniors to teach them about money management, and I am just 
curious as to whether any of the programs that we have read 
about or were discussed today--Job Corps, YouthBuild, 
Reintegration of Ex-Offenders--have any of those components in 
those programs?
    Ms. Oates. The WIA youth program encourages local areas to 
include financial literacy in terms of anything they do in the 
year-round programs, and to include in that cost-benefit 
analysis. We need to do more in terms of getting people to 
understand the cost benefit of going to school or going to a 
training program in terms of their lifelong earnings.
    And Congresswoman, if I may, you know, I would just like to 
comment on the summer youth program. I believe that the 
Recovery Act was an economic stimulus program, and I don't 
think there is any doubt the 5,000 kids who were in your area 
contributed to your local economy.
    So while I agree with Mr. Wilson that there--it is 
difficult to measure the long-term gains--and we will commit to 
doing that--but boy, a short-term gain was they spent their 
money and they were able to engage in things like buying books, 
like buying gas for their car to get to school, that they 
wouldn't have been able to do without that, and that is without 
even doing the nightmare of what would have happened if they 
had nothing to do all summer, and I say that not just for your 
district but for kids--for the 280,000 kids all over the 
country. What would they have done with all of that free time 
instead of 40 hours a week preparing and attending work 
opportunities?
    Ms. Fudge. Thank you.
    Let me also say that it gives you a sense of pride to get 
up every day and know that you have somewhere to go that is 
productive, that you are accomplishing something, that you are 
putting money in your pocket. There is a sense of well-being 
about working no matter how much you make.
    So I may be looking at this very differently. I know that 
there were issues with the program; I know that there are 
things we could have done better. But I think that it was a 
tremendous start to get these young people to understand how 
important it is to work, to put yourself in a position to work, 
to discipline yourself to go to school every day, to get up and 
know how to dress and how to speak. It takes you throughout 
your life, it doesn't just take you through that job.
    And the last question I have is, my colleague, Congressman 
Loebsack, and I introduced an amendment to H.R. 3221, the 
Student Aid and Fiscal Responsibility Act of 2009, that would 
encourage colleges and businesses to work together to train 
students on the jobs available in a particular region. For 
example, Sherwin Williams is a major employer in our area, and 
we have worked with Tri-C, our community college, to make 
certain that their students are trained for the jobs that 
Sherwin Williams has available.
    I would like to just have you just comment and let me know 
if these kind of fixed sector programs are helpful to our young 
people.
    Ms. Oates. I think the sector programs are more than 
promising. You know, we use the term ``promising practices'' 
all the time and it gets to have no meaning any more, but these 
are incredibly important on several levels: one, they give kids 
training in jobs that we know exist; and two, it keeps well-
educated, trained young people in our communities.
    And I think the tertiary point would be that in communities 
of long-term poverty, long-term hopelessness, we need to make 
sure that we are beefing up not only the individuals but the 
businesses there. We need to make sure those businesses stay 
invested in our communities so those communities can become 
vibrant again.
    Ms. Fudge. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Miller. Thank you.
    Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman.
    Thank the panel for bringing your expertise here today on 
this very important topic. You know, currently the job market 
is definitely challenging. We have seen continued unemployment, 
double-digits nationally, and unfortunately getting ready to 
pop over 20 percent in some of my counties in my district, and 
that is despite, you know, over a $1 trillion stimulus plan 
that was put into place.
    The future prospects, I will say, I see as promising, 
though, but it is not based on government. I actually see that 
it is based on the demographics of my generation, the baby 
boomers, which I am proud to be a part of that generation.
    But as we are retiring and beginning to retire in mass, and 
the real solution I see is employment and opportunity. 
Opportunity for growth and employment is clearly by 
strengthening the private sector, where the significant needs 
for a qualified workforce will be critical, and is critical 
today in certain areas. So I stop by the businesses and 
industries--it is finding the qualified workforce.
    And so with that, Secretary Oates, I wanted to see, has the 
department began to factor in the attrition of the baby boomer 
generation in strategic plans to address the, well, what we are 
talking about today, the economic opportunities for young 
Americans?
    Ms. Oates. Congressman, we are trying to do several things 
at one time. I actually was with the AARP people yesterday and 
they are very concerned about four generations of people in the 
workforce because they think all their workers who are not 
forced to leave because of illness or some other thing are--or 
some other issue--are staying in the workforce longer, and 
their concern is, are they still going to be welcome when they 
are 64? You know, I mean, is that still going to be something--
so it is a balancing act looking at respecting all ages of 
workers.
    But I can tell you specifically--and in your home state, I 
believe, Pennsylvania--it is very interesting to me how states 
have kind of evolved a sectoral strategy of their own. In 
central Pennsylvania they have become like the food packaging 
center of the world. You had a lot of snack food people there, 
but they have worked now with community colleges in that area 
to really get young people and older workers who need 
retraining into that food packaging industry and food safety 
industry.
    Well, Pennsylvania was never a leader in that, so I think 
some states have become really innovative in not only working 
with a sector where they have some presence, but building the 
workforce there. And while it doesn't respond to your question 
exactly of what do we do when people retire and there are 
needs, Pennsylvania shows that they are retraining and training 
workers of all ages.
    Now, I would agree with you that there are nationally some 
sectors who are graying very quickly, and I would point to the 
utilities sector, number one. I don't know how long people can 
stay at some of the utility jobs as they age, so the utility 
folks have been working with me since I was confirmed to really 
address this problem and to look at some possible solutions. 
For instance, you know, a national credential for certain 
pieces in the utility industry, for certain jobs in that 
industry, so that people had the mobility if they had to to 
move to get a utility job in an area where they knew they had 
the credentials.
    And the second thing that I want to applaud them for--you 
know, I had very little to do with this except now I am 
promoting it--they have aligned utility job codes in the 
civilian sector with military jobs, meaning that as our young 
people and not-so-young people come back from military service 
they can transition into those open utility jobs.
    So I think that is a model that we could use in other 
growing sectors. You know, we haven't even tried to do that yet 
in health care, but obviously many people who are serving are 
doing things that are directly related to the health care 
field, so my hope is in the months to come we could work with 
that industry to do the same thing and steal the good ideas 
from the utility sector. I hope that answers you question.
    Mr. Thompson. It helps. I think I certainly would encourage 
the department to look at that, because I think there is 
incredible opportunity there that is a matter of facilitating, 
not necessarily takes a lot of financial resources.
    I want to tie just a question back into the summer youth 
program with the question, the summer youth program, are we 
systematically providing exposure to strategic workforce 
needs--and there is a lot of industries out there: health care, 
manufacturing, education, much of it tied back again to the 
baby boomer generation retirement--in terms of placement, or is 
the program by design have more generic goals?
    Ms. Oates. The current program has been dormant for 10 
years. We haven't had a standalone summer program since 1999. 
So the two sectors in which we tried to help local areas were 
the two sectors that are growing nationwide: education and 
health care. The rest of it was really built on local labor 
market information.
    And I would tell you quite honestly, Congressman, I think 
the Department of Labor has work to do there. We need to 
improve our labor market information; we need to improve the 
ability of local areas to use that information; we need to work 
with states as they better define job codes. Sometimes, you 
know, the state job codes are so broad that a young person 
can't figure out what job they mean.
    So we have work to do there. I hope in a year I can tell 
you that we have made significant progress there. But this is 
really about working in partnership at the national level with 
our friends and the Department of Education to send a clearer 
example of what jobs exist, give kids better career exploration 
using technology instead of using time, because time is so 
scarce in a young person when they are in high school or when 
they are doing a job search, and finally, making sure that 
there is a clearer pathway through--more clearly defining the 
credentials you need to qualify for those jobs and where you 
can get those credentials in your local area.
    Mr. Thompson. Okay.
    Thank you, Mr. Chairman.
    Ms. Chu. Assistant Secretary Oates, my area of Los Angeles 
County received about $9 million in stimulus funds for the 
summer youth employment program and about 5,500 youth 
participated. Nearly half were the most needy of youth, both 
that were on probation or in households that received food 
stamps or cash aid or were in foster care.
    L.A. County believes the program was a great success. 
Certainly personal stories from these youth indicate that these 
were successes.
    Yet, as you mentioned, summer youth programs haven't been 
offered by the Department of Labor for nearly a decade, since 
year 2000. Is the department considering--is it considering 
making a long-term commitment to summer employment programs and 
what criteria would you be using to consider this a success? I 
know that you are looking at the successes and failures of this 
past program, but it appears to me that summer youth programs 
are very important.
    Ms. Oates. Well, we think they are very important. As you 
are aware, Congresswoman, the current legislation, the 
Workforce Investment Act, does not allow for a standalone 
summer youth program. It instead dictates year-round youth 
programs of which summer youth could be a part. But it has been 
a very small part since WIA was reauthorized--was authorized in 
1998.
    We would be more than willing to work with you about 
revitalizing a standalone summer youth program, and with the 
Appropriations Committee on that. We think that this summer, 
given a 3-month timeline to kind of get it up and running, we 
think it was incredibly successful.
    We think it could be better if there were a long-term 
commitment to it and employers knew that this was not a one-
shot deal and that they had the opportunity not only to build 
their infrastructure at their business to support temporary 
summer employees, but also had the ability to move those older 
youth who were looking for full-time employment into that.
    That does take a concentrated effort by employers. It was 
one that many were not ready for this year. But anecdotally, we 
know that a number of older youth did move into permanent 
employment this year and we will be looking at wage record data 
to verify that as we move on this fall.
    So we really do look forward to it. And Los Angeles, by the 
way, did a wonderful job. We had lots of stories from there and 
the community college system there was a huge partner in making 
sure that those jobs were meaningful.
    Ms. Chu. Thank you for that.
    Another program that seems to be very successful is 
ConnectEd. It is a program that is in my local area in the 
Montebello and Pasadena school districts, and it prepares high 
school students for both college and career using multiple 
pathways to help students gain an advantage in high school, 
college, and career by connecting academics with real-word 
experience so that they can do internships in those areas and 
get exposed to it. And those that are able to link their 
student interests with job preparation can--well, actually they 
do have excellent results with higher graduation rates, 
increased college enrollments, and higher earning potential.
    So it seems to be the kind of thing that we should be 
doing. I am wondering what the Department of Labor is doing to 
coordinate with the U.S. Department of Education on programs 
like this.
    Ms. Oates. Congresswoman, programs like ConnectEd are clear 
examples of areas where we think Perkins Vocational Education, 
the high school dollars, and the WIA youth dollars should be 
working together. And while the assistant secretary for the 
Office of Vocational Adult Education has not yet been 
confirmed, we have been working already with Undersecretary 
Martha Cantor to discuss ways that we could better align.
    We are making significant--for instance, we both have 
sectoral advisory groups, oftentimes in the same career 
clusters. We are under discussion right now about combining 
those so that employers who come in to offer advice to the 
Department of Education and the Department of Labor don't have 
to do it twice and don't have to say different things to 
different departments.
    We think that since 1998, when the Workforce Investment Act 
was created, we kind of said to the local areas, ``You have to 
work together,'' but at the federal level we never did. We 
think we have to work together on eligibility, we think we have 
to work together on better aligned program content, and we 
think we definitely have to work together on better aligned 
reporting. Local areas shouldn't be working double time to 
report one way for Perkins Secondary and another way for WIA 
youth, or Perkins Post-Secondary, or adult literacy.
    So I think it is too early to be overly-optimistic, so let 
me say I am cautiously optimistic that our conversations will 
result in real working, and I hope this committee will push us 
to do that. Right now the personalities at the two departments 
don't need the push. We work together naturally under the 
direction of Secretary Solis and Secretary Duncan; this has 
become standard operating procedure.
    But I think this committee should--and the Senate committee 
should also--be watching very carefully. If we don't do 
something, if we don't have clear and marketable results, all 
these efforts meant nothing.
    Ms. Chu. Thank you for that.
    And finally, let me ask about this----
    Chairman Miller. [Off mike.]
    Ms. Chu. Oh, thank you.
    Mr. Roe. Very quickly--and thank you, Mr. Chairman--you 
know, there are obviously values in jobs, and I think the most 
valuable thing I learned in a job is what I didn't want to do. 
I didn't want to be a farmer or a dishwasher or a shoe 
salesman; I learned a lot of things in jobs, so they do have 
benefit.
    But I think your point, Ms. Secretary, was the fact that if 
you could mentor someone or get in--where the businesses 
thought they would have a recurring workforce, that you could 
actually--that makes a lot more sense than just a make-work job 
in the summer. Any job has some value if you have a job. I 
totally agree with that.
    What we did, and I just--a question I want to pose to the 
panel: Has the change in the minimum wage made any difference? 
And let me--as a mayor of the city, Johnson City, Tennessee, 
where was, we changed our minimum wage long before the federal 
government did.
    What I did was, I went down to a local fast food chain and 
I figured during lunch hour you ought to be--if you worked an 
hour you ought to be able to buy lunch, so 5 years ago we 
changed it to $7 an hour because that is what it costs to buy 
lunch. And it seemed fairly logical to me to do that.
    And I just wonder, though, if in this tough economic time, 
if the minimum wage--has that hurt young people and teenagers 
getting jobs? And any of you can grab this.
    Mr. Austin. I can respond to that. I would say no. One 
thing that we have found that--at EPI, and this is based on 
some research with the Federal Reserve, is that raising the 
minimum wage has a stimulus effect. It reaches low-wage workers 
who, in turn, spend those monies. So it is good for the economy 
overall.
    The other thing to keep in mind is that in 1968 the federal 
minimum wage in 2009 dollars was $1.46 above what it is now. So 
we are, you know, historically we are still not at a high 
minimum wage, and in 1968 the unemployment rate was 3.4 
percent, you know, so we basically had full employment, and the 
teen unemployment rate was also quite low.
    Some other research done by the Fiscal Policy Institute 
found that states with minimum wages above the federal level 
had faster small business and retail job growth. So the 
research shows very positive effects from, you know, having the 
minimum wage maintain its relationship with the overall average 
wage.
    Mr. Roe. Well, it didn't affect where we were. I mean, the 
$7--I mean, we did that--this was at 5 years ago.
    I guess the other question that I have--and certainly the 
jobs that are being created in--I am a physician, and the jobs 
have been created in health care and education, as you pointed 
out. And certainly to direct these young people, because we 
have a huge opportunity and infrastructure in health care that 
we need right now. You have got half the nurses can retire in 
10 years.
    In the next 10 years we will have more doctors retiring and 
dying, and the point you made is is that that is only the tip 
of the iceberg with the jobs that are there. I mean, there are 
a tremendous number of other jobs--good jobs with health 
insurance, retirement, and on. So I think if we could hook 
these young people in and mentor them, that would be a--to me 
that is a very positive use of the money.
    Ms. Oates. Thank you, Congressman, and I think it gives us 
another example of how we have to work with the Department of 
Education, because we can't even talk to young people about 
aspiring to any career in health care if they haven't had a 
strong laboratory science background in high school. You know, 
they can't take science out of a book; they have to be able to 
know how to use instrumentation and how to react with that.
    So that is a clear example. We are happy to train them. We 
are happy to help, but we can't do it alone. So we are doing it 
in partnership with the Department of Education so not only the 
next generation will be ready, but also some of our folks can 
use some of those facilities to train, because as you know, the 
community colleges, even in your home state of Tennessee, are 
packed. And if we can get some of these training programs going 
on in the wonderful high school laboratories in the evenings 
and things like that, we are able to accelerate these programs 
to the degree we need the workers.
    Mr. Roe. We keep making health care more complicated, we 
are going to need more coders, too. I can tell you that.
    Ms. Oates. And the--I.T. workers.
    Ms. Stoneman. And sir, 15 local YouthBuild programs have 
actually expanded the career track from construction to health 
care just for the reasons that you say. They use private funds 
to innovate in that way. So as the YouthBuild funding expands, 
the field is ready to do a parallel track into health care and 
will thereby attract even more young women--focused on young 
men.
    Mr. Roe. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Scott is recognized for 3 minutes.
    Mr. Scott. Ms. Oates, you indicated that there was--we talk 
about jobs and training. Is there a mismatch or a scarcity of 
jobs? I mean, are the jobs there that people aren't qualified 
for, or are there just few jobs and training may move you up 
the list a little bit? Are there not just too few jobs out 
there?
    Ms. Oates. Congressman, I think there is both. I think that 
in any local area there are jobs available, so what you 
described as the mismatch exists almost everywhere. And the 
point of that is, we need to get better labor market 
information to young people so that they can qualify for those 
jobs.
    But clearly in this recession there are too few jobs, and 
our training under our formula programs as well as our 
competitive programs have been urging people to go for longer-
term training so that people get the qualification, the 
credential, the degree, so that when this economy rebounds and 
instead of looking and tracking job losses every month we are 
back to tracing job gains, those people will be ready and able 
to take those jobs.
    There is clearly a need to align the job training with the 
modeling that we are seeing about openings, whether in health 
care or education or the utility industry or other emerging 
green industries. So there is a little bit of a gamble there, 
but we are hoping that the training will be sufficient that 
people will be flexible enough to not just be qualified for a 
narrow job but for a sectoral job.
    Mr. Scott. The Recovery Act, you said you were able to 
create 280,000 jobs. Did you spend all the money that was 
appropriated?
    Ms. Oates. The money has been appropriated to local areas, 
and on October 10th I will know exactly how much they spent. 
But my guess would be that every local area spent about 70 
percent, at least, of their 2-year money----
    Mr. Scott. If you had more money could you have created 
more jobs?
    Ms. Oates. Yes, sir.
    Mr. Scott. Is there any barrier to--I mean, if we have got 
all these kids looking for jobs in recreation, education, 
winterization--if we had more money could we have created more 
jobs?
    Ms. Oates. I believe we could have created more jobs, 
particularly, and more work experiences in the health care 
field and in the education field. I hear routinely from 
community colleges that they loved having the young summer 
employees there, they loved the fact that they were so willing 
to learn, they loved the fact that they were able to then 
recruit them into classes in the fall, and many of them said 
they could have handled more.
    Mr. Scott. And I would just point out, in terms of the 
value of a job, there is a group in Los Angeles that has a 
slogan, a gang prevention slogan, that ``nothing stops a bullet 
like a job,'' so----
    Ms. Oates. Let us get t-shirts on that one. That is----
    Mr. Scott. They have t-shirts.
    Chairman Miller. Thank you.
    And thank you very much. I was originally going to have us 
come back, but I think it is going to take too much of your 
time. I appreciate your testimony and your expertise here with 
us.
    You heard me mention that we are still trying to make sure 
that we have WIA right for this reauthorization, because I 
think we have, you know, with the administration we have a lot 
of potential to do some things that we haven't been doing, and 
I would just like to make sure that we have that--that the law 
allows for some of that opportunity, some of that flexibility, 
and some of that trying to do these longer-term connections, 
certainly with respect to the summer programs that you have 
discussed here today.
    So thank you very much, and with that the members will have 
14 days to submit additional material and questions to the 
hearing record. And if there is no objection we will adjourn, 
and I will see if I can beat 200 of my members to the floor.
    Thank you.
    [Questions for the record and their responses follow:]

            Questions Submitted to Assistant Secretary Oates

    Dear Assistant Secretary Oates: Thank you for testifying at the 
Thursday, October 1, 2009, Committee on Education and Labor hearing on 
``Ensuring Economic Opportunities for Young Americans.''
    One of the Republican Committee members had additional questions 
for which she would like written responses from you for the hearing 
record.
    Congresswoman Cathy McMorris Rodgers (R-WA) asks the following 
questions:
    (1) As you know, disabled workers have been particularly impacted 
by the downturn in the nation's economy. In fact, the current 
unemployment rate among members of the disability community (ages 16 
and up) reached 16.9 percent in August--most of whom are minimum wage 
workers. What actions has the Department taken to ensure that funds 
provided to State and local organizations under the American Recovery 
and Reinvestment Act (ARRA), including funding allocated to summer 
youth initiatives, are used to support employment opportunities for 
disabled youth and young adults?
    (2) Next year, the Committee is expected to consider the 
reauthorization of the Workforce Investment Act of 1998, which 
authorizes the nation's job training programs for unemployed and 
displaced adults and youth. Does the Department intend to send a 
legislative proposal to Congress on the reauthorization of WIA? What 
changes could be included in WIA that would assist disabled individuals 
better prepare for employment?
    (3) I have been made aware that the Department, through the 
Employment and Training Administration (ETA) and the Office of 
Disability Employment Policy (ODEP), is currently in the process of 
conducting a listening session for the disability community to weigh in 
on their recommendations for the reauthorization of WIA. Can you 
provide my office with more information on the Department's initiative 
(i.e. the meetings that have taken place to date, any upcoming 
meetings, a summary of the recommendations, etc)?
    Please send your written response to the Committee on Education and 
Labor staff by COB on Thursday, October 22, 2009--the date on which the 
hearing record will close. If you have any questions, please contact 
the Committee. Once again, we greatly appreciated your testimony at 
this hearing.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

                    Responses to Questions Submitted

Representative Cathy McMorris Rodgers
    1. As you know, disabled workers have been particularly impacted by 
the downturn in the nation's economy. In fact, the current unemployment 
rate among members of the disability community (ages 16 and up) reached 
16.9 percent in August--most of whom are minimum wage workers. What 
actions has the Department taken to ensure that funds provided to State 
and local organizations under the American Recovery and Reinvestment 
Act (Recovery Act) including funding allocated to summer youth 
initiatives, are used to support employment opportunities for disabled 
youth and young adults?

    The Department recognizes that the recession has increased 
challenges for individuals with barriers to employment, including youth 
with disabilities, and that part of the intent of the Recovery Act is 
to help address these challenges. The Department also acknowledges that 
much more still needs to be done to increase employment opportunities 
for youth with disabilities. To help ensure states and local 
organizations are using Recovery Act funds to support employment 
opportunities for youth with disabilities, the Employment and Training 
Administration (ETA) has utilized a combination of formal guidance, 
workforce system assessments, and technical assistance, which are 
discussed in further detail below.
    On March 18, 2009, ETA issued Training and Employment Guidance 
Letter (TEGL) 14-08 to provide guidance to states and local areas on 
the implementation of the Recovery Act. The TEGL encourages state and 
local areas receiving Recovery Act funds to focus Workforce Investment 
Act (WIA) Youth resources on the neediest youth populations eligible 
for services, including youth with disabilities.
    The TEGL also required states to modify their WIA/Wagner-Peyser Act 
State Plans to reflect new strategies and activities related to 
Recovery Act implementation and the downturn in the economy. As part of 
this modification, states were asked to describe how they will ensure 
that the full range of employment and training services delivered 
through the One-Stop system are accessible to and meet the needs of 
individuals with multiple barriers to employment, including individuals 
with disabilities. States were further required to specifically 
indicate how they would use their Wagner-Peyser resources to support 
individuals with disabilities. The State Plans explain how states 
intend to use Recovery Act funds to improve services to individuals 
with disabilities through both preexisting programs and new projects 
that target training and supportive services to adults and youth with 
disabilities. ETA uses the State Plans to monitor progress and offer 
technical assistance in specific initiatives, such as efforts to 
improve services to individuals with disabilities.
    In addition to TEGL 14-08, ETA engaged in a nationwide assessment 
and technical assistance consultation process to identify technical 
assistance needs related to the implementation of Recovery Act funds. 
The assessment tool included questions regarding accessibility and 
availability of assistive technology for people with disabilities to 
help ensure states and local areas were ready to serve individuals with 
disabilities. ETA's Regional Offices have been actively engaged in this 
initiative and provide technical assistance to states and locals where 
needs are identified.
    As of August 31, 2009, over 43,000, or 13.4%, of participants 
served with Recovery Act funds through the WIA Youth program were youth 
with disabilities. These youth participated in summer work experiences 
and received supportive, follow up, and leadership development 
services. For example:
    <bullet> In Bismarck, North Dakota, the Job Service North Dakota 
program targeted youth with disabilities and provided employment 
opportunities for over 70 youth. Participants were placed in a variety 
of work experiences, participated in a career exploration workshop, and 
received individualized assistance in transitioning to career and 
education pathways at the end of the summer. Youth with severe 
disabilities received help in developing stable support systems.
    <bullet> In Southwestern Connecticut, The WorkPlace, Inc., 
(Southwestern Connecticut's Regional Workforce Board) matched 170 youth 
with disabilities with summer employment experiences. At the beginning 
of the program, participants completed a full week of ``work 
readiness'' workshops to learn what is expected in professional work 
environments. For some youth, this program was their first meaningful 
and paid work experience.
    <bullet> In Greenwood, Colorado, as part of the Arapahoe/Douglas 
Works Program, 11 youth with disabilities worked in a variety of jobs, 
including assisting with event set-up and break-down, gardening, 
working on grounds and general maintenance, where they received on-the-
job training and developed skills that will be transferable to other 
employment opportunities in the future.

    2. Next year, the Committee is expected to consider the 
reauthorization of the Workforce Investment Act of 1998, which 
authorizes the nation's job training programs for unemployed and 
displaced adults and youth. Does the Department intend to send a 
legislative proposal to Congress on the reauthorization of WIA? What 
changes could be included in WIA that would assist disabled individuals 
better prepare for employment?

    ETA believes that the reauthorization of WIA provides an important 
opportunity to introduce innovative initiatives that build on the 
current strengths of the public workforce system, and address areas of 
the system that should be bolstered. ETA has worked to articulate ideas 
to help frame WIA reauthorization discussions, in partnership with the 
Department of Education, and reauthorization should consider strategies 
to support a workforce system that is fully inclusive, accessible and 
available to all workers, including persons with disabilities. ETA has 
also consulted with a broad array of stakeholders through a series of 
WIA reauthorization listening sessions that will help to further inform 
reauthorization discussions. In particular, ETA and the Office of 
Disability Employment Policy (ODEP) co-hosted a national listening 
session via webinar with the disability community. ETA will work 
closely with ODEP in preparing for and supporting WIA reauthorization, 
and is looking forward to working with the Congress on the 
reauthorization of WIA.

    3. I have been made aware that the Department, through the 
Employment and Training Administration (ETA) and the Office of 
Disability Employment Policy (ODEP) is currently in the process of 
conducting a listening session for the disability community to weigh in 
on their recommendations of WIA. Can you provide my office with more 
information on the Department's initiative (i.e., the meetings that 
have taken place to date, any upcoming meetings, a summary of the 
recommendations etc.)?

    As part of a series of listening sessions being held by ETA on WIA 
reauthorization, a listening session for disability stakeholders was 
held on October 1, 2009. The event was hosted jointly by Assistant 
Secretary for Employment and Training Jane Oates and Assistant 
Secretary for Disability Employment Kathy Martinez. Over 400 
participants attended the listening session in person or virtually via 
webinar. Participants included representatives from the workforce 
system, regional councils of government, economic development agencies, 
national disability organizations, disability advocates and users of 
various disability services, foundations, local education agencies, 
universities, vocational rehabilitation agencies, employers, veterans 
agencies and organizations, criminal justice organizations, and 
disability and business technical assistance centers.
    During the listening session, participants were asked to address 
what is working well in WIA and should be continued; what is not 
working well and should be discontinued or altered; and what 
opportunities reauthorization presents for innovation and change. The 
recorded webinar and a written transcript of the session are currently 
available on ETA's online portal, Workforce3One. To access this 
website, users must have an account on Workforce3One, which is free and 
open to the public. New users can create an account online by visiting: 
http://www.workforce3one.org/register.aspx. The transcript is also 
available in hard copy, and the Department would be pleased to transmit 
a copy to Representative Rodgers upon request. ETA is also reviewing 
comments received after the session and will use them to help guide and 
inform future WIA reauthorization discussions. ETA is working with ODEP 
in this process.
                                 ______
                                 
    [Whereupon, at 11:20 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
